U.S. DEPARTMENT OF COMMERCE
        Office of Inspector General




                  Semiannual Report
                    to the Congress

                               March 31, 1998
    Under the provisions of the Inspector General Act of 1978, Public Law 95-452, as amended, we report twice
yearly to the Congress on the activities of the Office of Inspector General. We describe the major problems, abuses,
and deficiencies identified during audits, inspections, and investigations, along with our recommendations for
corrective action.
    Requests for this document, in this form or in an alternative format to meet the needs of persons with
disabilities, should be addressed to Office of Inspector General, U.S. Department of Commerce, Room 7099C
HCHB, 14th & Constitution Ave., NW, Washington, DC 20230. Telephone requesters can call (202) 482-0231
or TDD (202) 482-5897.
    An electronic version of this report, along with all performance audit and inspection reports issued during the
semiannual period, can be obtained via the OIG’s Internet Home Page at http://www.oig.doc.gov/reports.
                   Message for the Secretary


April 30, 1998

The Honorable William M. Daley
Secretary of Commerce
Washington, DC 20230

Mr. Secretary:

    This report provides a comprehensive overview of Office of Inspector General activities for the first half of
fiscal year 1998. Section 5 of the Inspector General Act requires that you transmit this report, with any comments
you may wish to add, to the appropriate congressional committees within 30 days.

    In December 1997, Francis D. DeGeorge retired after many years of dedicated service as Inspector General.
Mr. DeGeorge came to Commerce as the Department’s first Deputy Inspector General in June 1982 and was sworn
in as Inspector General on April 18, 1988. The OIG extends its appreciation to Mr. DeGeorge for his commitment
to promoting economy and efficiency in the Department of Commerce.

     Since January 1998, when I became the Acting Inspector General, our office has reemphasized and devoted
significant additional resources to our ongoing reviews of the Department’s major management issues, such as the
2000 decennial census and financial management. We have also undertaken several new initiatives. Two of these
initiatives are focused on cross-cutting issues within the Department. One involves a review of the use of memoran-
dums of understanding and interagency agreements to assess the relevance of projects done under these agreements
to Commerce’s goals and objectives, as well as the effectiveness and efficiency of the processes for undertaking
such projects. A second initiative involves a review of all Commerce financial assistance programs to assess
whether funding decisions for discretionary awards are being made properly, in accordance with statutory and
administrative criteria.

    I am excited by the opportunities and challenges I face as Acting Inspector General. My primary goal is to
ensure an independent, impartial, and accurate assessment of the most important issues confronting the Department.

                                                 Sincerely,




                                                 Johnnie E. Frazier
                                                 Acting Inspector General
Enclosure




March 1998                              Commerce IG Semiannual Report                                                i
                         Table of Contents

     MESSAGE FOR THE CONGRESS ................................................................................... 1
         Foreword ................................................................................................................... 1
         Major Areas of Concern ............................................................................................ 2
             2000 Decennial Census ....................................................................................... 2
             NOAA Fleet and NOAA Corps ........................................................................... 4
             PTO Management and Program Issues ............................................................... 5
             NWS Modernization ........................................................................................... 6
             Financial and Administrative Management .......................................................... 7
             Facilities Planning and Laboratory Consolidation .............................................. 10
             Department-wide Review of Interagency and Other Agreements ...................... 12
         Financial Managers’ Financial Integrity Act ............................................................. 13
         Resolution and Follow-Up ....................................................................................... 14

     DEPARTMENT OF COMMERCE ORGANIZATION CHART ...................................... 16

     AGENCY OVERVIEWS................................................................................................... 17
         Bureau of Export Administration ............................................................................. 17
         Economic Development Administration ................................................................... 19
         Economics and Statistics Administration .................................................................. 23
             Bureau of Economic Analysis
             Bureau of the Census
         International Trade Administration ........................................................................... 31
         Minority Business Development Agency ................................................................. 36
         National Oceanic and Atmospheric Administration .................................................. 38
         National Telecommunications and Information Administration ................................ 50
         Patent and Trademark Office .................................................................................. 54
         Technology Administration ...................................................................................... 60
             National Institute of Standards and Technology
             National Technical Information Service
         Departmental Management ...................................................................................... 66

     REPORTING REQUIREMENTS .................................................................................... 77

     STATISTICAL HIGHLIGHTS ......................................................................................... 81

     TABLES AND APPENDIXES ......................................................................................... 82

     DEFINITIONS OF OIG REVIEWS AND
     FINANCIAL STATEMENTS AUDIT TERMS ................................................................ 94

     GLOSSARY OF ABBREVIATIONS ................................................................................ 95

     OIG ORGANIZATION CHART AND POINTS OF CONTACT ........ (Inside Back Cover)




ii                           Commerce IG Semiannual Report                                                           March 1998
                   Message for the Congress

                                              FOREWORD
     This year marks the 20th anniversary of the Inspector General Act. It seems an appropriate time for us not only
to reflect on our accomplishments but also to examine our current activities to ensure that we are still meeting the
Act’s mandate to provide leadership and coordination and make objective recommendations for reducing waste,
fraud, and abuse, and promoting economy, efficiency, and effectiveness in Commerce programs and operations.

    Consistent with the IG Act, early on the Commerce OIG embraced the concept of “up-front” auditing and other
mechanisms to better “prevent” problems. Rather than solely waiting until projects are completed, much of our
work is conducted while projects are still underway, so that potential problems can be identified and corrections
made before schedules have slipped and considerable funds have been expended. We have, for example, operated a
highly successful inspections and program evaluations program, which has enabled us to meet the need for timely
feedback to program managers on a wide range of issues. In addition, recognizing the need for effective OIG
oversight of the Department’s many mission-critical systems, we established an Office of Systems Evaluation,
which focuses exclusively on information systems and technology issues.

    During this semiannual period, our work has continued to emphasize those programs and activities that we
believe offer the greatest potential for improvements and cost savings. For example, we issued reports on the 2000
Census Master Address File, PTO’s space consolidation project, the National Marine Fisheries Service laboratory
structure, and the financial statements of each Commerce operating unit. We also continued to work closely with
senior departmental and bureau officials in monitoring NOAA’s efforts to modernize and restructure the National
Weather Service and to explore private sector alternatives to owning and operating an in-house fleet of ships.

    During the next six months, our work will increasingly focus on such major initiatives as the 2000 decennial
census, the Year 2000 computer problem, and the Department’s efforts to achieve its goal of an unqualified audit
opinion on the Commerce FY 1999 consolidated financial statements.

   We look forward to continuing to provide the Department and the Congress with independent, timely analyses to
support decision-making.




                                                  Johnnie E. Frazier
                                                  Acting Inspector General




March 1998                              Commerce IG Semiannual Report                                                1
Message for the Congress


                             MAJOR AREAS OF CONCERN
                          This section highlights what we consider to be the major areas of
                      concern for the Department. By addressing these areas, the Department
                      and the Congress can improve program management, eliminate serious
                      operational problems, decrease vulnerability to fraud and waste, and
                      achieve significant cost savings.

                      2000 Decennial Census
                           In our November 1995 report on the Census Bureau’s readiness for
                      the 2000 decennial census and in our subsequent work, we have encour-
                      aged the bureau to prioritize, assess, and simplify the major components of
                      the 2000 decennial census design to reduce risks. In December 1997, at
                      the request of Senate Commerce Committee Chairman John McCain, we
                      provided the Committee with an analysis of key decennial census mile-
                      stones and their associated risks for its use in monitoring the bureau’s
                      progress in planning for the decennial census (see page 23).

                           We expressed concern that the bureau’s fundamental problem is that it
                      simply may not have enough time to plan and implement a design that
                      achieves the bureau’s dual goals of containing cost and increasing accu-
                      racy. We concluded that as a result of its lack of time to complete various
                      aspects of the design, the bureau may have to request additional funding,
                      reprogram funds, or experience quality shortfalls. We suggested that the
                      bureau immediately (1) prioritize and assess the readiness of its major
                      design components, (2) simplify the design, (3) realistically reassess costs,
                      (4) communicate results both internally and externally, and (5) redirect the
                      dress rehearsal accordingly.

                          However, it is apparent that the design process has been complicated,
                      rather than simplified, by the “dual-track” agreement with the Congress,
                      which requires the bureau to plan for both a sampling and a non-sampling
                      census. And there is an additional burden placed on staff resources in
                      order to plan for both alternatives. Calendar year 1998 is a critical time in
                      Census 2000 preparations. The bureau will be implementing and evaluating
                      the dress rehearsal and finalizing plans for 2000. These preparations
                      require continued support from staff assigned to these tasks.

                           Since our 1995 report, we have issued four reports related to decennial
                      census planing. Our July 1996 report on the acquisition of a data capture
                      system for the 2000 census found that the bureau’s planned approach of
                      selecting two contractors to design and test prototype systems was not
                      justified and, due to the relatively short development time frames allowed,

2                    Commerce IG Semiannual Report                                    March 1998
                                                                        Message for the Congress


would add risk to the program (see September 1996 issue, page 27). We
recommended that the bureau select a single contractor and work with it to
develop the data capture system. The bureau agreed with our recommen-
dation and awarded a single development contract in March 1997.

     In our September 1997 report on the expanded targeted questionnaire
program, we recommended that the bureau reevaluate the effectiveness of
the various elements of the program and make changes as necessary (see
September 1997 issue, page 24). We found that test results indicated that
the current targeted questionnaire program was not likely to substantially
improve coverage for hard-to-count populations, but that the bureau was
continuing to pursue the program as a means of promoting local partner-
ships. To contain costs and promote a more accurate decennial, we
recommended that the bureau define the targeted questionnaire program
with regard to cost, schedule, performance, and public perception. Further,
we recommended that the bureau discuss program details and justification
with local partners as soon as possible.

     In November 1997, we issued an inspection report on the bureau’s
headquarters information processing systems for the 2000 decennial
census (see page 26). During the decennial, data must be processed within
severe time constraints, and statistical results must be correct. We found
that the bureau was using an ad hoc software development process that did
not provide adequate controls, testing, or documentation. Census manage-
ment has agreed with our findings and has moved to implement our rec-
ommendation that it strengthen its procedures for software development.

    In March 1998, we issued a report on the 2000 Census Master
Address File (MAF) building program (see page 24). Our review focused
on the results of the bureau’s July 1997 assessment of the MAF-building
program, which centered on partnerships with the U.S. Postal Service and
local governments. Finding that the program was complex, risky, and could
not provide an adequate final product, the bureau concluded that a 1990-
style, 100-percent field canvass is essential.

     Despite these conclusions and the associated need for an additional
$108.7 million to fund the canvass and other redesign improvements, the
bureau developed performance measures related to the percentage of local
governments that participate in MAF building. These participation
measures appeared to be on an equal footing with quality measures. This
emphasis on participation rates was troubling because evidence suggests
that, on balance, unverified local lists add more error than they correct.
Unless the emphasis on local participation is focused on quality concerns,
it could either further increase cost and complexity or decrease MAF


March 1998                              Commerce IG Semiannual Report                          3
Message for the Congress


                      accuracy. Our report made recommendations for addressing these issues.
                      The Census Bureau generally agreed with our conclusions and
                      recommendations.

                          In recent months we have developed an oversight strategy that will
                      provide broad coverage of the remaining risks related to Census 2000
                      planning. For example, we plan to monitor the bureau’s dress rehearsal
                      operations at each of the three sites—Sacramento, California; Columbia,
                      South Carolina; and the Menominee Indian Reservation in Wisconsin.

                           We also plan to evaluate the bureau’s approach to matching and
                      unduplicating census responses. Moreover, we will assess the bureau’s
                      procedures for local updates to the MAF; review the bureau’s contracting
                      strategy for printing the forms to be used in the decennial, as well as other
                      procurement issues; and evaluate selected information systems.

                      NOAA Fleet and NOAA Corps
                           The Commerce legislative proposal and transition plan for eliminating
                      the NOAA Corps has gone to the Congress, where no further action has
                      been taken. We continue to believe that the transition plan for the Corps
                      should be implemented by (1) retiring all officers with at least 15 years of
                      service, (2) identifying the most critical positions in the line offices and
                      support activities and filling as many as possible with non-retiring officers,
                      (3) determining which of the critical positions cannot be filled immediately
                      by such officers, and (4) hiring qualified temporary personnel for such
                      positions until these officers can be trained. This process will provide fair
                      treatment for all officers, minimize disruptions in essential services, and
                      allow NOAA greater flexibility in increasing its use of outsourcing options
                      for ship- and aircraft-related activities.

                           We also continue to believe that NOAA should not be in the business
                      of designing, owning, maintaining, and operating ships. Instead, NOAA
                      should clearly articulate its programs’ requirements for ship-based services
                      to the private sector, academia, and other government ship operators that
                      can provide more cost-effective and modern research vessels.

                          We are currently completing an audit to determine whether
                      outsourcing is a more cost-effective alternative than in-house operation in
                      meeting NOAA’s aircraft requirements. Our review has focused on the
                      bureau’s light aircraft and helicopters, excluding aircraft that possess
                      unique capabilities related to hurricane research. We expect to issue a final
                      report during the next semiannual period.



4                    Commerce IG Semiannual Report                                     March 1998
                                                                           Message for the Congress


PTO Management and Program Issues
     As the Congress continues to consider legislation to establish PTO as a
performance-based organization, we have concerns about many aspects of
the agency’s current operations that could affect its ability to function in
that role. The patent application backlog is growing, and productivity is
static. This past year, patent pendency exceeded 20 months for the first
time in nine years, apparently because of such factors as the decreased
time examiners spend on patent examination and the increased complexity
of patent applications (see page 58).

    In addition, PTO’s heavy investments in automation and business
process reengineering have not led to significant productivity
improvements. The Patent Application Management system, now called
Electronic Patent Application Processing, is one of the few components of
the Automated Patent System (APS) plan that is expected to improve
productivity. However, the concept of electronic processing has been on
the drawing board for more than 15 years, has been repeatedly postponed,
and is now not scheduled to be fully deployed until the year 2003. We
have recently begun an evaluation of PTO’s progress in planning and
implementing this component.

     In February 1997, PTO replaced its long-standing principal systems
contract for APS with a new systems development and maintenance
contract, which was awarded to two contractors in an effort to improve
their performance by maintaining ongoing competition for specific tasks. In
December 1997, we issued an inspection report on the progress of PTO’s
transition to the new contractors (see page 55). We found that although
progress had been made, the transition had not been receiving the attention
it required and that PTO needed to take full advantage of the period of
overlap between the old and new contractors. PTO accepted our
recommendation to extend the old contract by three months, giving the
original contractor more time to transfer information to the new
contractors. PTO also agreed to quickly finish developing configuration
management procedures so that the new contractors would be able to
access and manipulate application software in an efficient, orderly fashion.

     In addition, PTO is involved in a more than $1 billion project, along
with the General Services Administration (GSA), to consolidate the
bureau’s facilities and operations and accommodate space expansion needs
in a 2 million-square-foot facility. This project is expected to be one of the
largest real estate ventures that the federal government will undertake in
the next decade.



March 1998                               Commerce IG Semiannual Report                            5
Message for the Congress


                           The basic procurement strategy is sound, and PTO and GSA are
                      performing adequately to complete the effort. Nonetheless, we are
                      concerned that PTO has not finalized its space requirements for the new
                      facility or completed some of the critical milestones, which may delay the
                      project and expose the government to increased cost risk. We have also
                      recommended that the bureau apply a contractual ceiling to its “build-out”
                      costs associated with the internal design of the proposed facility and
                      incorporate any beneficial effects of its reengineering and automation
                      initiatives in finalizing its space requirements. Finally, we believe that PTO
                      needs to complete a written interagency agreement with GSA to define the
                      critical rights and obligations of each agency and allocate the underlying
                      project risk between them (see page 54).

                      NWS Modernization
                          The FY 1998 Appropriations Bill (Public Law 105-119) required the
                      Secretary of Commerce to certify that the Advanced Weather Interactive
                      Processing System (AWIPS) could be completed within the funding cap of
                      $550 million before FY 1998 funds for the project could be spent.
                      AWIPS, the key integrating element of NWS’s $4.5 billion modernization
                      program, processes meteorological data and distributes it to NWS facilities.
                      On March 30, 1998, the Secretary made this certification in a letter to the
                      Congress, which included a discussion of changes being made to the
                      program in order to contain costs within the cap. Previously, the program
                      was to deliver all of the capabilities needed to replace existing, outdated
                      information processing systems and reduce staffing at NWS field offices to
                      target levels. Because of cost and schedule overruns, however, the
                      advanced forecast preparation capabilities cannot be delivered within the
                      cap, resulting in a smaller-than-planned reduction in staffing.

                           With certification completed, NOAA requested and in mid-April
                      received approval from the Secretary to proceed with nationwide
                      deployment of AWIPS. This acquisition milestone is known as Key
                      Decision Point-4 (KDP-4). KDP-4, the last Secretarial decision point for
                      this program, signifies the Department’s confidence that the system has
                      reached a level of maturity, stability, and supportability sufficient to
                      commit program funds for hardware procurement.

                          Based on our analysis, evaluation, and hands-on testing of AWIPS
                      during the System Acceptance Test and the Operational Test and
                      Evaluation conducted last fall, and our review of the AWIPS Program
                      Management Plan, we concluded that NOAA needed to address several
                      important technical and management problems before KDP-4. These
                      issues include the quality of system testing, the instability of the system,
                      the need to redesign and reimplement certain software and hardware

6                    Commerce IG Semiannual Report                                      March 1998
                                                                           Message for the Congress


components, the problematic performance of the facility for centrally
controlling AWIPS systems in the field, and the incomplete development
schedule and budget estimate to finish AWIPS.

     Since the time of our review, some steps have been taken to improve
the central control facility, although issues remain. However, NOAA has
focused primarily on AWIPS cost issues and a management realignment,
giving less attention to technical issues. Nonetheless, the request for the
recent KDP-4 decision does acknowledge the technical issues that remain
and expresses a commitment to dealing with them. We will continue to
monitor the progress of this important program.

Financial and Administrative Management
     In the following sections, we discuss a number of critical areas related
to the Department’s financial and administrative management. Among
these are the Department’s efforts to address the year 2000 (Y2K) com-
puter problem, to overcome schedule delays and rising costs in imple-
menting the critically important Commerce Administrative Management
System (CAMS), to work with the bureaus in continuing to improve their
financial statements, and to implement the financial management and
performance reporting requirements of the Federal Financial Management
Improvement Act and the Government Performance and Results Act.

Year 2000 Computer Problem

     In February 1998, based on information provided by individual
Commerce bureaus, the Department reported that 298 out of 470 mission-
critical computer applications are already year 2000 compliant, that all
bureaus will meet the March 1999 deadline for full compliance, and that
no system has fallen behind schedule by two months or more. However,
the Department has not performed work to verify the accuracy of the
information supplied by the bureaus. Until such work is performed, the
Department will not have assurance that it is receiving and reporting
accurate information.

    Converted systems must undergo comprehensive testing procedures to
ascertain their compliance. We believe that software testing tools and
expert help must be available to support and accelerate the conversion
process. The Department must monitor and assist the bureaus as much as
possible, and help them perform verification and validation of converted
systems.

   More specifically, the Department must assist the bureaus in
developing cross-project standards for consistency of measures, resource

March 1998                               Commerce IG Semiannual Report                            7
Message for the Congress


                      identification, and reporting; work with the bureaus to prioritize and
                      determine levels of effort for critical projects and then assess resource
                      shortages; and procure Y2K conversion and testing tools for the bureaus to
                      use. The Department must also develop contingency plans for major
                      systems, including those believed to be compliant. Failure to take these
                      actions could result in widespread system failures and risk potentially
                      undermining Commerce’s ability to conduct business. We will continue to
                      monitor and assess the Department’s progress in converting its systems to
                      be Y2K compliant.

                      Commerce Administrative Management System

                            The Department is looking to CAMS to provide an effective internal
                      control environment that meets the CFO Act’s requirement for a single
                      integrated financial management system. Despite noteworthy progress, the
                      Department continues to face significant challenges and experience consid-
                      erable delays in deploying CAMS. Due to schedule delays and rising costs,
                      the Department has revised its strategic plan and approach to CAMS
                      implementation. Resources are now focused on completing a pilot project
                      at the Census Bureau to assess the system’s viability before implementing
                      it at three other bureaus, as previously planned.

                          Census is on schedule to complete the pilot by the end of June 1998,
                      and CAMS should provide it with an updated accounting system to
                      support the 2000 decennial census. However, given the long history of
                      increased costs, extended deadlines, and diminished time frames to
                      implement CAMS Department-wide, we continue to have concerns. Any
                      delays will most likely extend CAMS deployment dates for bureaus other
                      than Census into 2000. Clearly, CAMS needs close, top-level
                      departmental oversight.

                      Financial Statements Audits

                            During this semiannual period, the Department prepared its second
                      consolidated financial statements, on which the OIG disclaimed an opinion
                      (see page 68). We also issued an individual audit report for each bureau.
                      Our audits revealed that the Department has strengthened its financial
                      management, with six bureaus receiving improved audit opinions. In
                      addition, the overall number of audit findings has decreased in recent
                      years. Although much remains to be done, we congratulate the Department
                      for its commitment to improving its financial management, and encourage
                      it to continue working toward the Secretary’s goal of an unqualified audit
                      opinion on the Commerce FY 1999 consolidated statements.




8                    Commerce IG Semiannual Report                                 March 1998
                                                                          Message for the Congress


     For FY 1997 statements, unqualified opinions were received by BEA/
ESA, MBDA, NIST, NTIA, PTO, TA, the Department’s Working Capital
Fund, and the Department’s Salaries and Expenses Fund. BXA, Census,
and NTIS received unqualified opinions on their balance sheets with
disclaimers on their income statements. EDA and NOAA received qualified
opinions on their balance sheets with disclaimers on their income
statements. Disclaimers of opinion were received by the Department’s
Franchise Fund and ITA (for details, see page 66 and the individual bureau
sections). For definitions of some of the terms used in financial statements
audits, see page 94.

Federal Financial Management Improvement Act

     Compliance with applicable laws and regulations is the responsibility of
the Department’s management. As part of obtaining reasonable assurance
about whether the financial statements are free of material misstatements,
the individual bureaus were tested for compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts, and
certain other OMB-designated laws and regulations, including the require-
ments of the Federal Financial Management Improvement Act of 1996.

     Under the act, we are required to report on whether the Department’s
financial management systems substantially comply with federal require-
ments, applicable accounting standards, and the U.S. Standard General
Ledger at the transaction level. To meet this requirement, we performed
tests of compliance using the act’s implementation guidance, issued by
OMB in September 1997.

     The Department was not in substantial compliance with all of the act’s
requirements. Specifically, as indicated in the Secretary’s Annual Statement
and Report - Federal Managers’ Financial Integrity Act, dated December
31, 1997, the Department is not in compliance with central agency
requirements for a single, integrated financial system. Additionally, our
report on internal control structure that was included in the Department’s
Consolidated Financial Statements identified 10 reportable conditions, of
which 7 were material weaknesses related to the Department’s and its
bureaus’ internal controls. As a result, the Department and bureaus were
not in compliance with the guidance issued by the Federal Accounting
Standards Advisory Board. Finally, BXA, ITA, and NOAA, representing
approximately 60 percent of the Department’s operations, did not record
transactions at the Standard General Ledger level. These bureaus were
unable to adequately perform a crosswalk between the general ledger and
the financial statements.


March 1998                               Commerce IG Semiannual Report                           9
Message for the Congress


                      Government Performance and Results Act

                          The Government Performance and Results Act of 1993 requires that
                      the Department maintain a strategic plan, prepare annual performance
                      plans, and prepare performance reports comparing results with target levels
                      of performance. The Department submitted its first strategic plan, for
                      FYs 1997-2002, in September 1997 and its first annual performance plan,
                      for FY 1999, in February 1998. The Department will prepare its first
                      performance report in the year 2000.

                           We reviewed the annual performance plan before it was submitted to
                      OMB and the Congress. We compared the plan with recent OMB and
                      General Accounting Office guidance on what information should be
                      included, and we provided suggestions for improvement. Among the areas
                      that we believed needed strengthening were verification and validation of
                      data reliability, strategies for achieving targeted performance goals, and the
                      presentation of targeted performance measures. The final plan submitted
                      to OMB and the Congress reflected many of our suggestions. We will
                      continue to work with the Department in its efforts to prepare information
                      that will be useful both to management and to oversight groups such as
                      OMB and the Congress.

                      Facilities Planning and
                      Laboratory Consolidation
                           In a March 16, 1998, memorandum, the Deputy Secretary announced
                      a Department-level initiative to review the structure and organization of
                      Commerce’s domestic field offices. We endorse this initiative, the
                      objectives of which are to (1) improve service delivery, (2) reduce the total
                      number of field offices, (3) make better use of current technologies, and
                      (4) build a Department-wide, integrated approach. The initiative will
                      involve five Commerce bureaus with extensive field structures—BXA,
                      EDA, ITA, MBDA, and NOAA.

                          During recent years, the OIG has conducted many reviews that have
                      either evaluated the proposed acquisition of new facilities or identified
                      opportunities for using various streamlining or restructuring options, such
                      as consolidation, collocation, or closure (see, for example, March 1994
                      issue, page 31; March 1995, page 39; September 1995, pages 45 and 55;
                      March 1996, pages 33 and 48; and September 1996, page 33). Our recent
                      work on the National Marine Fisheries Services (NMFS) laboratory
                      network and NIST construction issues is described below.




10                   Commerce IG Semiannual Report                                     March 1998
                                                                           Message for the Congress


NMFS Laboratory Structure

     NMFS relies on a laboratory network of 29 facilities nationwide,
divided into five regions. In a recent audit, we concluded that, in general,
the NMFS laboratories are conducting high-priority research in well-
utilized facilities (see page 39).

     However, we also identified several opportunities for NMFS to
streamline its field structure, including closing some laboratories and
transferring their functions to other, underutilized facilities. By
implementing our recommendations, NMFS could put approximately
$6 million to better use. NOAA has submitted its audit action plan but
disagrees with our findings and recommendations, as well as the funds to
be put to better use. We will be addressing NOAA’s objections through the
audit resolution process. We believe that our recommendations should be
implemented in a manner that supports the streamlining initiative discussed
in the Deputy Secretary’s March 16 memorandum.

Follow-up on NIST Construction Issues

     Beginning in 1991, the National Institute of Standards and Technology
embarked on a 10-year, $540 million plan to upgrade its laboratory
facilities at both its Gaithersburg, Maryland, and Boulder, Colorado,
campuses. NIST’s Capital Improvements Facilities Plan (CIFP), now
estimated to cost at least $900 million due to inflation and added elements,
includes a mix of new construction and renovations of existing buildings.

    Over the last two years, we conducted a comprehensive four-part
review of the CIFP. While acknowledging that NIST has effectively met
many of its capital improvement program challenges, we detailed a number
of concerns in the four reports (see March 1996 issue, page 59; September
1996 issue, page 56; and March 1997 issue, page 61). We have also
emphasized the need for NIST and departmental managers to work
together to more effectively manage this large, expensive capital
development program.

    Since the issuance of our fourth report, we are pleased that NIST, the
Department, and OMB have all agreed on the importance of pursuing
funding for unified construction of the Advanced Measurement Laboratory
in Gaithersburg. The President’s FY 1999 budget includes a request for
such funding. Receiving funding for unified construction will enable NIST
to build the laboratory more efficiently, and for less money, than possible




March 1998                               Commerce IG Semiannual Report                           11
Message for the Congress


                      under traditional funding mechanisms. We strongly support this request. In
                      addition, the Department has improved its oversight of the CIFP. It has
                      taken a more active role in determining if CIFP budget requests are
                      reasonable and justified, and it has coordinated a successful effort to
                      obtain current, reliable information on NIST’s facilities needs and plans.

                           However, we have continuing concerns about the latest version of
                      NIST’s CIFP. While an improvement over earlier versions, it still includes
                      nearly $220 million for renovations to NIST’s metrology, physics, and
                      chemistry buildings in Gaithersburg that we believe have not been
                      adequately justified. Although some renovations are clearly needed, NIST
                      has not provided sufficient documentation to justify their estimated cost.
                      Further, by leasing one building, and constructing another, that were not in
                      its original plans, NIST has greatly increased its total space without
                      developing plans to cease using older, less useful space or to vacate its
                      leased space in Gaithersburg in the near term. NIST should take budget
                      implications into greater account when making and changing its facilities
                      plans. And the Department should scrutinize current and future facilities
                      plans to ensure that all construction and renovation costs are fully justified.

                           In addition, although NIST no longer plans to build a $92 million
                      Advanced Measurement Laboratory in Boulder, it now plans to construct a
                      $20 million “clean room” there. Construction of the clean room is
                      scheduled to begin in FY 2000 and be completed in FY 2003. NIST has
                      not, however, completed a benefit-cost analysis to justify the building.

                      Department-wide Review of
                      Interagency and Other Agreements
                          Earlier OIG reviews of the bureaus’ use of interagency and other
                      agreements found significant deficiencies, such as improper accounting for
                      project costs and undercharging for services provided. Concerned that
                      such agreements were being, or could be, used to circumvent procurement
                      guidelines or to improperly inflate budgetary resources, we have initiated a
                      Department-wide review of interagency and other agreements.

                           During the initial stages of this review, it became evident that the
                      Department did not have a comprehensive set of policies and procedures
                      to guide its bureaus in undertaking and formulating agreements. We found
                      that Commerce agencies also lack bureau-specific guidelines for preparing,
                      reviewing, and administering agreements; lack centralized databases; do
                      not consistently recover full costs under reimbursable agreements;
                      sometimes use an agreement when a contract or grant would be more
                      appropriate; and do not fully justify their use of certain legal authorities.


12                   Commerce IG Semiannual Report                                     March 1998
                                                                            Message for the Congress


     As part of our Department-wide review, we have looked at how each
major departmental bureau handles its agreements. Commerce agencies
have over 4,700 agreements in effect, involving approximately $1.1 billion
in funds for reimbursable activities or obligations to other parties to acquire
goods or services. Upon completion of this review, we will have issued
reports on the agreements process for most Commerce bureaus or line
offices, as well as a cross-cutting report that will bring together all of the
major issues we have identified.

    The one report we issued during this semiannual period dealt with
MBDA’s use of joint project agreements for its Minority Business
Opportunity Committee (MBOC) program (see page 36). During our
review, discussions with MBDA, the Office of the Secretary, and the
Office of General Counsel led us to conclude that cooperative agreements
were a better mechanism for managing the MBOC program. MBDA has
agreed to switch to cooperative agreements for funding program operators.
This should improve the award process and strengthen departmental
oversight and monitoring of the program. The remainder of the reports on
agreements will be issued during the next semiannual period.


           FEDERAL MANAGERS’ FINANCIAL
                  INTEGRITY ACT
    The Federal Managers’ Financial Integrity Act of 1982 (Public Law
97-255) requires the heads of executive agencies to report annually to the
President and the Congress on the adequacy of their accounting and
management control systems. The annual report identifies material
weaknesses and actions being taken to correct them.

    The staffs of the OIG and the Department’s CFO work together to
assist bureaus in identifying their material weaknesses. This year, the
Secretary reported the four material weaknesses listed below, all of which
were reported in previous years. Progress has been made in each of these
areas; nevertheless, they remain areas of serious concern for the
Department.

!       Modernization of the National Weather Service (NOAA).
!       Fleet Modernization (NOAA).
!       Financial Systems (Department-wide).
!       Management of the Design and Implementation of the
        2000 Decennial Census (Census).


March 1998                                Commerce IG Semiannual Report                           13
Message for the Congress


                                   RESOLUTION AND FOLLOW-UP
                          The Inspector General Act Amendments of 1988 require this report to
                      present those audits issued before the beginning of the reporting period
                      (October 1, 1997) for which no management decision has been made by
                      the end of the period (March 31, 1998). The following table presents the
                      overall status.


                           Type of Audit Report                                   Unresolved

                           Performance                                                  0

                           Financial Assistance                                        10

                           Financial Statements                                         0

                           Preaward Contract                                            3

                           Postaward Contract                                           0



                          The number of unresolved financial assistance audit reports has
                      increased from 3 to 10. One of these reports involves a NOAA award and
                      remains unresolved after two years. NOAA is preparing a final audit
                      resolution proposal based on OIG comments on a draft proposal. A second
                      audit, involving an EDA grant, remains unresolved after one year. Resolu-
                      tion is pending the issuance of a report by state auditors. The other eight
                      audits involve NIST awards under the Advanced Technology Program.
                      Audit resolution proposals have been submitted; however, OIG-NIST
                      discussions have not yet succeeded in resolving the reports. Additional
                      details are presented on pages 22, 49, and 64.

                          Discussion of the three unresolved preaward contract audits can be
                      found on page 79.

                          Department Administrative Order 213-5, “Audit Resolution and
                      Follow-up,” provides procedures for management to request a
                      modification to an approved audit action plan, or for a financial assistance
                      recipient to appeal an audit resolution determination letter. The following
                      table summarizes the activity during the reporting period.




14                   Commerce IG Semiannual Report                                    March 1998
                                                                         Message for the Congress


  Report Category                       Modifications      Appeals

  Actions pending (October 1, 1997)            0               6

  Submissions                                  5               7

  Decisions                                    5               4

  Actions pending (March 31, 1998)             0               9



    The nine appeals pending final decisions by the Department include
one NIST, six EDA, and two MBDA financial assistance audits.




March 1998                             Commerce IG Semiannual Report                           15
                                           Department of Commerce
                                           Organization Chart

                                                    Office of the
                                                     Secretary



       Bureau of                     Economic                         International                         Patent and
        Export                      Development                           Trade                             Trademark
     Administration                Administration                    Administration                           Office




                       Economics and
                                                                                            Technology
                         Statistics
                                                                                           Administration
                       Administration




                                        Bureau of                          National Institute               National
           Bureau of                                                        of Standards                   Technical
                                        Economic
          the Census                                                       and Technology             Information Service
                                        Analysis




                                                                                              National
                   Minority Business                    National Oceanic
                                                                                        Telecommunications
                     Development                        and Atmospheric
                                                                                          and Information
                       Agency                            Administration
                                                                                           Administration



                                             National                      National
                                         Marine Fisheries                  Ocean
                                             Service                       Service




                                             National                   NOAA
                                             Weather                     Corps
                                             Service                   Operations




                                                                         Oceanic
                                             NESDIS                  and Atmospheric
                                                                        Research




16
                                         Bureau of
                              Export Administration

Audit of FY 1997 Financial Statements                                            The Bureau of Export
                                                                                 Administration is primarily
     The OIG contracted with a certified public accounting (CPA) firm to         responsible for the administration
audit BXA’s FY 1997 statement of financial position, and the related             and enforcement of the nation’s
statement of operations and changes in net position. The firm issued an          system for controlling exports of
unqualified statement of financial position, and disclaimed an opinion on        sensitive dual-use goods and
the related statement of operations and changes in net position because          technologies. Under the Export
opening year balances were not audited.                                          Administration Act and regulations,
                                                                                 BXA’s major functions include
                                                                                 formulating and implementing
    We commend BXA for its significant progress in addressing prior year
                                                                                 export control policy; processing
internal control findings of eight material weaknesses (see March 1997           export license applications;
issue, page 18). For FY 1997, the auditors identified one material               conducting various policy,
weakness in BXA’s internal control structure, relating to the need for           technical, and economic analyses;
proper recording and liquidation of accounts payable and undelivered             promulgating regulations;
orders, and one reportable condition, relating to the need for adequate          conducting industry outreach; and
review of the financial statements overview, which is to provide a               enforcing the act and regulations.
description of the bureau’s programs, activities, and results.                   Export Administration
                                                                                 implements U.S. export control and
    In its report on compliance with laws and regulations, the CPA firm          nonproliferation laws and policies
                                                                                 through export licensing,
identified two instances of non-compliance: BXA did not report the above
                                                                                 commodity classifications, and
material weakness in its 1997 Federal Managers’ Financial Integrity Act          advisory opinions; technical,
report, as required, and its financial system does not substantially comply      economic, foreign availability, and
with the Federal Financial Management Improvement Act.                           policy analyses; promulgation of
                                                                                 regulations; and industry outreach.
     The auditors recommended that BXA improve its financial operations          It also conducts various defense
by: (1) establishing procedures for reviewing account balances on a regular      industry base activities.
basis, and for obtaining a complete list of all accruals to be recorded at the   Export Enforcement participates
end of the fiscal year; (2) working closely with NOAA’s finance office,          in reviews of export license
which provides BXA with financial and accounting support, regarding              applications and conducts criminal
                                                                                 and administrative investigations of
implementation of accrual policies and procedures; and (3) continuing to
                                                                                 the export control portions of the
support the implementation of the Commerce Administrative Management             Export Administration Act and
System, which is expected to replace NOAA’s financial management                 regulations. It also administers and
system. In its comments on the audit report, BXA detailed the actions it         enforces the antiboycott provisions
plans to take to address these issues. Those proposed actions are fully          of the act and regulations.
responsive to the auditors’ recommendations.

     We reviewed a draft version of BXA’s overview to its financial
statements and shared our observations and recommendations with BXA
management in a discussion paper. BXA revised its FY 1997 overview and
indicated it will make additional improvements in future years. We have
highlighted the need for BXA to continue to improve its future overviews
by increasing its use of outcome and cost-effectiveness measures, listing an
additional year’s worth of data to facilitate the analysis of trends in per-
formance over time, and strengthening its discussion of results. (Financial
Statements Contract Audits Division: FSC-9859-8-0001)

March 1998                                Commerce IG Semiannual Report                                            17
                                                                Bureau of Export Administration


                                          In Brief
                 Bureau of
                  Export
                                          Reprimands. In October 1997, six BXA employees and three employees
               Administration
                                          of an agency contractor received letters of reprimand after an OIG
                                          investigation confirmed allegations that an illegal sports gambling pool was
                                          being operated in a BXA office using government time and equipment. In
        Export                Export
     Administration        Enforcement    addition, the agency invoked the Department’s alternative discipline
                                          initiative and directed the employees to make contributions to charity as
                                          part of their punishment. (Washington Field Office of Investigations)




18                                       Commerce IG Semiannual Report                                    March 1998
                          Economic Development
                                 Administration

Audit of FY 1997 Financial Statements                                          The Economic Development
                                                                               Administration was established
     A contractor CPA firm audited EDA’s statements of financial position      under the Public Works and
as of September 30, 1997, and 1996, and the related statements of              Economic Development Act of
operations and changes in net position for the years then ended. The firm      1965 to generate new jobs, help
expressed a qualified opinion on the statement of financial position because   protect existing jobs, and stimulate
EDA had not established procedures to ensure that accrued grant expenses       commercial and industrial growth
were recorded accurately in the financial statements and the firm was          in economically distressed areas
                                                                               of the United States. EDA does
unable to obtain sufficient evidence to form an opinion regarding the basis
                                                                               this by providing grants to public
on which these expenses were stated. EDA received a disclaimer of
                                                                               and private nonprofit organizations
opinion on its statements of operations and changes in net position because    in communities with problems that
of the carryover effect of the prior year disclaimer of opinion.               are stifling economic growth;
                                                                               planning grants to states, cities,
     In its report on compliance with laws and regulations, the firm iden-     districts, and Indian reservations;
tified one instance of noncompliance: EDA’s financial accounting system        special economic adjustment
did not substantially comply with the Federal Financial Management             assistance to states and local
Improvement Act of 1996 in that the bureau has not established an              governments with recent, severe
accounting system that conforms with applicable federal accounting             problems or long-term economic
                                                                               deterioration; technical assistance
standards with respect to accurately recording accrued grant expenses.
                                                                               to communities to build
                                                                               organizational capacity and solve
     In its report on internal control structure, the firm identified five     specific economic development
reportable conditions, which involved the need for EDA to (1) accurately       problems; and research and
record accrued grant expenses (material weakness), (2) strengthen the          evaluation grants to increase
financial management control environment, (3) separate incompatible            knowledge about effective
duties relating to computer program changes, (4) improve controls over         economic development tools.
access to, as well as changes made to, automated data systems, and
(5) reconcile annual leave on a timely basis.

     EDA has made substantial progress in improving its financial manage-
ment. The decrease in the number of material weaknesses from four in
FY 1996 to only one in FY 1997, and the receipt of a qualified opinion on
its statement of financial position, are indications of EDA’s commitment to
improving its financial management. Nevertheless, EDA needs to resolve
the remaining conditions, particularly its methodology for determining
accrued grant expenses. This issue will have to be resolved before EDA
can receive an unqualified opinion.

     In examining the overview to EDA’s financial statements, we found
that it appropriately (1) links EDA’s programs with the Department’s
Strategic Plan, (2) identifies management actions taken to address internal
control deficiencies, and (3) reflects EDA’s progress in meeting GPRA
requirements. However, our review of the overview also found that
improvements are needed. Specifically, EDA needs to better report on
performance results and improve the presentation of performance data to


March 1998                              Commerce IG Semiannual Report                                            19
Economic Development Administration


                                              facilitate trend analyses and assessments of whether target levels of
               Economic                       performance are being achieved. (Financial Statements Contract Audits
             Development                      Division: FSC-9861-8-0001)
             Administration

                                              Massachusetts Fisheries Grant
      Program                   Program       Produced Limited Program Results
     Operations               Research and
                               Evaluation
                                                  In July 1994, EDA made a $1.5 million grant to a Massachusetts city
                                              under the Northeast Fisheries Initiative Program to assist the depressed
                   Finance and
                  Administration              fisheries industry in the Northeast States. The grant provided funds to
                                              capitalize two revolving loan funds (RLFs) and provide technical assistance
                                              related to the fishing industry. The grant terms required the city to provide
                                              a $500,000 cash match.

                                                   The purpose of the RLF portion of the grant was to provide fishermen
                                              and businesses in the city with low-interest loans to (1) convert and retrofit
                                              commercial fishing vessels to harvest underutilized species and other
                                              seafood products, (2) purchase new equipment, (3) support existing and
                                              new marine-related businesses, and (4) assist start-up or expansion of non-
                                              fishing-related businesses.

                                                   The OIG performed an audit of the entire grant period from July 1994
                                              through June 1997 to determine the status of the RLFs, the type of techni-
                                              cal assistance received, and the program results achieved. We found that,
                                              although the city generally used project funds appropriately, it achieved
                                              only limited program results from the grant award because it had not made
                                              available to potential borrowers, or had not used, nearly two-thirds of the
                                              $2 million in project funds. Specifically, the city (1) did not make its
                                              required $500,000 cash match, (2) retained about $716,000 in unloaned
                                              RLF cash, and (3) did not use $107,000 in technical assistance funds.

                                                  Due to the seriousness of these problems, we requested EDA to
                                              suspend further grant activity until our findings could be resolved. EDA
                                              agreed and so notified the city in November 1997. We also found that the
                                              subgrantees operating the RLFs on behalf of the city had incurred
                                              $12,500 in questioned administrative costs and failed to comply with
                                              EDA’s requirements regarding financial and performance reports, annual
                                              RLF plan certifications, and loan file documentation.

                                                   We recommended that EDA reduce the federal portion of the city’s
                                              grant through a partial termination for convenience, reduce the city’s
                                              matching requirement in the same ratio as the federal share reduction, and
                                              require the city to reimburse the $12,500 in questioned costs. EDA and the
                                              city agreed to the partial termination, resulting in $629,000 in funds to be
                                              put to better use. (Atlanta Regional Office of Audits: ATL-10253-8-0001)

20                                           Commerce IG Semiannual Report                                     March 1998
                                                    Economic Development Administration


Flood Act Grantee Lacked Adequate Accounting
Records and a Plan for Using Program Income
    In 1993 the Congress provided emergency supplemental
appropriations to EDA to award disaster assistance grants to help in the
economic recovery of communities, industries, and firms harmed by
widespread flooding in the Midwest that spring. In November 1994, EDA
awarded a flood act grant to a small Missouri town of 400 people to
construct four industrial buildings in order to relocate flood-damaged
businesses outside the flood plain. In addition to damage to businesses, the
town was forced to relocate. The total approved project amount was
$2,775,000, including a federal share of over $2,000,000 and a local
matching share of nearly $700,000. The town claimed total costs above
the project amount, and EDA disbursed all the federal grant funds.

     An OIG audit disclosed that the town had inadequate accounting
records that did not support all costs claimed, resulting in more than
$190,000 in questioned project costs. We also found that the town failed
to submit for EDA approval a plan for using program income, as required
by the grant’s terms and conditions, and improperly disbursed income
without an approved plan.

     We recommended that EDA disallow $190,879 in questioned costs
and recover $103,549 in excess federal disbursements. We also recom-
mended that EDA not award future grants to the town until it establishes
an adequate fund accounting system, and require the town to develop a
satisfactory plan for using program income or return 75 percent of all
income to EDA. EDA and the town disagree. (Denver Regional Office of
Audits: DEN-9651-8-0001)

Idaho RLF Used Funds Improperly and
Did Not Maximize Private Investment
    In 1989 EDA awarded a $451,000 Title IX grant to an Idaho
economic development association to capitalize a business development
RLF. In 1994 the grant was amended to add another $400,000 to the
fund’s capitalization. The RLF was intended to assist in stabilizing and
diversifying the area’s economy and employment base, which the
association strove to do by establishing an active business development
financing program. As of March 1997, the association had loaned out all
but $138,000 of the fund’s $851,000 initial capital, earning nearly
$360,000 in loan interest income, and had more than $690,000 in
outstanding loans.


March 1998                              Commerce IG Semiannual Report                21
Economic Development Administration


                          The OIG initiated a joint investigative/audit effort in response to
                      allegations that RLF funds had been embezzled or otherwise diverted for
                      improper purposes. No evidence of criminal activity was found, but the
                      financial portion of our audit disclosed that the association improperly used
                      RLF principal totaling $12,327 to pay for administrative expenses, and
                      incurred $4,000 in questioned costs by charging the full purchase price of
                      equipment, instead of depreciation costs, to the RLF. We also found
                      deficiencies in the association’s internal controls in the areas of fidelity
                      bonding of employees, separation of duties, and frequency of bank
                      deposits.

                           In addition, the audit concluded that the association could improve
                      RLF management by maximizing private dollar investment leveraging with
                      its loans. The Title IX Economic Adjustment Program RLF Administrative
                      Manual requires RLF loans to leverage private investment of at least $2 for
                      every $1 of RLF investment, but the association was able to attain only a
                      1.65-to-1 ratio of private dollars to RLF dollars.

                           We recommended that EDA direct the association to (1) maximize the
                      use of private dollars in making RLF loans, (2) correct the identified
                      internal control deficiencies, and (3) replenish the RLF with $16,327 for
                      the improper use of RLF funds and the questioned costs. The association
                      agreed with our first two recommendations, but disagreed with our
                      financial findings, claiming that RLF principal had not been used for
                      administrative expenses and that depreciation had been properly recorded
                      and supported. (Denver Field Office of Investigations and Seattle
                      Regional Office of Audits: STL-9830-8-0001)

                      Audit Reports Unresolved for Over Six Months
                          A financial assistance audit report, DEN-7037-7-0001 (see March
                      1997 issue, page 25), found that a Texas Title IX grant recipient could not
                      support its project cost claims because it submitted inaccurate claims,
                      commingled federal and state funds with local funds, made duplicative cost
                      claims, and used some of the funds for ineligible or non-project-related
                      purposes. As a result, we questioned over $760,000 in costs claimed
                      against the EDA grant, and nearly $600,000 in costs claimed against state
                      funds.

                          Resolution is pending the receipt of a report on a state audit of the
                      grantee’s financial records. EDA, State of Texas, and OIG officials will
                      meet to resolve the cost-sharing issues once the state audit report is issued.




22                   Commerce IG Semiannual Report                                     March 1998
                                  Economics and
                        Statistics Administration

Senate Committee Chairman Seeks IG Views                                        The Economics and Statistics
on Key Decennial Census Milestones and Risks                                    Administration analyzes
                                                                                economic developments, develops
     Beginning with the issuance of our November 1995 report on the             policy options, and produces a
Census Bureau’s readiness for the 2000 decennial census and in our              major share of U.S. government
subsequent audit and inspection work, we have encouraged the bureau to          economic and demographic
                                                                                statistics. The Chief Economist
prioritize, assess, and simplify the major components of the decennial
                                                                                monitors and analyzes economic
design to reduce risks. During an oversight hearing on the Department’s         developments and directs studies
operations, the Chairman of the Senate Committee on Commerce,                   that have a bearing on the
Science, and Transportation asked the OIG to provide the Committee with         formulation of economic policy.
its views on what milestones need to be accomplished by what dates in           ESA has two principal agencies:
order to ensure a successful 2000 decennial census. The Committee               Bureau of the Census. Census is
intended for this information to be used as a benchmark to track the            the country’s preeminent statistical
bureau’s progress in planning for the census.                                   collection and dissemination
                                                                                agency. It publishes a wide variety
     In response to this request, in December 1997, we provided the             of statistical data about people and
                                                                                the economy of the nation,
Chairman with an analysis of key decennial census milestones and their
                                                                                conducting approximately
associated risks. We concluded that although the 2000 decennial design          200 annual surveys, in addition to
was risky, the Census Bureau’s fundamental problem was that it simply           the decennial census of the U.S.
might not have enough time to plan and implement a census that achieves         population and the decennial
its dual goals of containing cost and increasing accuracy. The problem was      census of industry.
amply evidenced by the tightness of the Master Activity Schedule—the            Bureau of Economic Analysis.
primary decennial program management tool. The schedule’s tightness was         BEA’s goal is to provide a clear
due to changing design details, lagging progress in some critical activities,   picture of the U.S. economy by
less than full implementation of strategies and procedures, and a continuing    preparing, developing, and
lack of agreement between the administration and the Congress on the            interpreting the national income
                                                                                and product accounts
appropriate use of sampling. We noted that our analysis had not taken into
                                                                                (summarized by the gross
account the recent congressional directive for dual-track planning.             domestic product) as well as
                                                                                aggregate measures of
     A recurring theme of our analysis was that as a result of its lack of      international, regional, and state
time to complete various aspects of the design, the bureau would have to        economic activity.
ask for additional funding, reprogram funds, or experience potential quality
shortfalls. To minimize the need for such actions, we concluded that the
bureau would need to immediately prioritize and assess the readiness of its
major design components, simplify the design, realistically assess costs,
communicate results both internally and externally, and redirect the 1998
dress rehearsal accordingly. In recent months, we have developed an
oversight strategy that will enable us to assess the remaining risks associ-
ated with the 2000 decennial census. In March 1998, we responded to
questions posed by the Ranking Minority Member of the House Govern-
ment Reform and Oversight Subcommittee on the Census, on the decen-
nial census risks discussed in our December 1997 analysis. (Economics
and Statistics Audits Division)



March 1998                               Commerce IG Semiannual Report                                            23
Economics and Statistics Administation


                                     Census Address-Building Program May Become
           Economics and             More Complex, Costly, and Counterproductive
             Statistics
           Administration
                                         In March 1998, the OIG issued an audit report on the Census
                                     Bureau’s 2000 decennial address list, known as the Master Address File.
     Bureau             Bureau of    The address list that was used in conducting the 1990 decennial was a
      of the            Economic
     Census             Analysis
                                     source of millions of errors and, therefore, a good candidate for reengi-
                                     neering. It was also a matter of great interest to local officials, who
                                     believed that they could help to improve the list. Partly in response to this
                                     interest, in October 1994, the Congress passed Public Law 103-430, which
                                     required the bureau to allow local governments to review the MAF before
                                     the 2000 decennial takes place.

                                         Concerned about difficulties encountered in implementing the MAF, in
                                     1997 the bureau initiated an assessment of the address-building program,
                                     which centered on partnerships with the U.S. Postal Service and
                                     39,000 local governments. Finding that the program was complex and
                                     risky, and could not provide an adequate final product, the assessment
                                     team concluded that a 1990-style, 100-percent field canvass is essential for
                                     ensuring that the MAF is accurate.

                                         Despite these conclusions and the associated need for an additional
                                     $108.7 million for the canvass and other redesign improvements, the team
                                     identified the percentage of local governments that participate in MAF
                                     building as a measure of program success. While recognizing the value of
                                     achieving a high level of local government involvement, we were
                                     concerned that this participation measure appeared to be on equal footing
                                     with more important measures that focus on final MAF accuracy rates.

                                          We concluded that by placing great emphasis on local participation, the
                                     bureau was putting MAF accuracy at risk. Although we recognize that the
                                     bureau is legally required to give local governments the opportunity to
                                     review their portions of the MAF and that such partnerships can be a
                                     helpful way to foster local cooperation, the bureau’s goals of an accurate
                                     census and address list tend to conflict with local officials’ desire for as
                                     high a count as possible. Using a more substantive measure, such as cost-
                                     effectiveness or a percentage of valid additions or deletions, could mitigate
                                     the conflict while acknowledging the role of local lists.

                                         The bureau’s emphasis on partnerships and the outcome of its
                                     assessment demonstrate its desire to satisfy local officials, who will likely
                                     expect to play an important role in the address-building process. Yet the
                                     bureau needs to strike the right balance among accuracy, cost, and local
                                     involvement. Clearly, accuracy must take precedence, give MAF’s
                                     centrality to the decennial.

24                                  Commerce IG Semiannual Report                                     March 1998
                                                    Economics and Statistics Administation


    However, if accuracy and local involvement take precedence, costs
may spiral upward because of the complexity involved in reconciling
multiple lists and verifying thousands of discrepancies, especially if a 100-
percent canvass does not occur. On the other hand, if cost and local
involvement take precedence, quality is likely to suffer. For these reasons,
the bureau must move forward with MAF refinements, communicating the
results to its local partners soon.

     The risk to the program is clearly diminished if a 100-percent canvass
is conducted, because that operation can “clean up” any deficiencies
before the decennial. However, we question whether the numerous initial
operations designed to preclude extensive field work, which were designed
to operate in tandem with targeted canvassing, are now needed in the
current plan, which involves expanding some elements of local participa-
tion and conducting a 100-percent canvass. The possible savings from
curtailing earlier MAF-building operations or plans to expand local review
may partially offset the funding increase requested for canvassing.

    We recommended that the Census Bureau:

!       Conduct a review of initial local address updates submitted
        through the reengineered MAF-building program to ascertain the
        cost-effectiveness of including local address data in the MAF.

!       Reexamine components of MAF building initially designed to
        obviate the need for field work to determine whether savings are
        possible to partially offset the cost of the new canvassing
        operation.

!       Adjust the MAF program accordingly and communicate the
        adjustments, and the justifications for them, to local partners as
        soon as possible.

    The bureau generally agreed with our conclusions and recommenda-
tions. (Economics and Statistics Audits Division: ESD-9608-8-0001)




March 1998                               Commerce IG Semiannual Report                  25
Economics and Statistics Administation


                        Bureau’s Information Processing System Unit
                        Lacks Plans and Procedures for the 2000 Census
                             The accuracy of decennial census data is critical because it is the basis
                        for apportioning seats in the Congress and for distributing billions of dollars
                        in federal assistance. The processing systems unit within the Census
                        Bureau’s Decennial Systems and Contracts Management office is
                        responsible for the information processing systems at headquarters. The
                        office is involved in all stages of decennial census operations, starting with
                        the collection of census information, proceeding through the analysis and
                        tabulation of census data, and ultimately, with the preparation of census
                        results for dissemination.

                             During a survey of information processing systems, the OIG observed
                        that the requirements for systems to support headquarters processing were
                        not clearly defined, and we were unable to confirm that mechanisms
                        required to manage software development were being implemented and
                        that adequate progress was being made. We, therefore, conducted an
                        inspection to (1) evaluate the appropriateness of the system requirements,
                        (2) assess the system implementation strategy and plan, (3) evaluate the
                        readiness and capabilities of the development organization and the planned
                        use of support contractors, and (4) identify system development risks.

                           Our inspection report disclosed several deficiencies in the software
                        development approach for headquarters processing systems:

                        !       Software was not being developed in accordance with any
                                well-defined process. Despite the significant capabilities and
                                experience of managers and software developers within the office,
                                a well-defined software development process based on software
                                engineering principles was not being followed. The approach
                                employed was not based on standards for (1) documenting and
                                reviewing software specifications and design, (2) ensuring that
                                rigorous, independent testing is carried out, and (3) ensuring the
                                uniform and effective use of development and evaluation methods
                                and tools. A software development process based on at least this
                                minimal set of elements is necessary to better ensure accurate
                                census results.

                        !       Estimates of software development schedules and resources
                                for the 1998 dress rehearsal and the 2000 census were not
                                realistic. The bureau developed a master activity schedule that
                                identifies activities, their interrelationships, and expected durations
                                necessary to accomplish the dress rehearsal and the decennial


26                     Commerce IG Semiannual Report                                      March 1998
                                                      Economics and Statistics Administation


         census. Durations specified in the plan for software development
         activities, however, did not indicate the expected effort required,
         but rather represented “windows of opportunity” or the time
         available for development. Without estimates of activity duration,
         management cannot reliably determine whether software
         development schedules are achievable or whether requests for
         staffing levels to support software development are realistic.

!        Requirements for headquarters processing are incomplete,
         subject to change, and likely to be late. As planned, the dress
         rehearsal and the decennial census will rely on statistical processes
         that have not been used in previous censuses. Therefore, decisions
         concerning the details of these processes should be documented in
         requirements specifications for software that must still be
         developed. However, at the time of our review, statistical research
         was still being conducted, and important decisions concerning the
         details of some of these processes were not being made in a timely
         manner. Consequently, important specifications cannot be
         prepared within the required time frame. Developing software
         without specifications, or with frequently changing specifications,
         increases the risk that costly and time-consuming modifications
         will be needed later to accommodate changes in requirements. The
         bureau should focus on defining and refining requirements, rather
         than risk having to modify prematurely designed and developed
         software.

    Our report contained recommendations to address these deficiencies.
During our inspection, we discussed our concerns with bureau managers,
who identified actions they would take to address the concerns. We found
their proposed approach in agreement with our recommendations. (Office
of Systems Evaluations: OSE-10034)

Audit of Census’ FY 1997 Financial Statements
    The contractor CPA firm that performed an audit of the Census
Bureau’s financial statements expressed an unqualified opinion on the
combined statement of financial position as of September 30, 1997. This
represents an improvement over the qualified opinion expressed on the
FY 1996 statement of financial position. The auditors disclaimed an
opinion on the related combined statement of operations and changes in
net position for the year ended on September 30, 1997. The firm was
unable to express an opinion on the latter statement because it could not
readily extend its auditing procedures sufficiently to satisfy itself as to the
balances of assets, liabilities, and net position as of October 1, 1996.


March 1998                                 Commerce IG Semiannual Report                  27
Economics and Statistics Administation


                           The auditors’ report on internal controls identified three reportable
                        conditions, the first of which is a material weakness:

                        !       Reconciliations between Census’ financial information system and
                                its subsidiary records were not performed in a timely manner and
                                did not sufficiently document and account for all reconciling items.

                        !       No policies or procedures are in place for determining the actual
                                cost of items held in inventory for sale to other government
                                agencies and the public.

                        !       The unbilled accounts receivable balance as of September 30,
                                1997, was not reviewed to determine if outstanding receivable
                                amounts were collectible.

                            The report on compliance with laws and regulations disclosed that
                        Census’ financial management systems did not substantially comply with
                        federal requirements.

                            After we reviewed the draft overview to Census’ financial statements,
                        the bureau made a number of improvements we suggested. However, in
                        future years, the bureau needs to make further improvements by
                        strengthening reported results of program performance and improving the
                        presentation of results to facilitate analyses of trends and the assessment of
                        the bureau’s success in meeting its goals and objectives.

                             We commend Census’ efforts in its role as pilot bureau for the
                        Commerce Administrative Management System. This project required
                        significant bureau resources in FY 1997 and will continue to do so until it
                        is fully implemented. CAMS is critical because it is to provide (1) the
                        Department with a single integrated financial management system, as
                        required by the CFO Act, and (2) Census with an updated accounting
                        system for the 2000 decennial. We encourage Census management to
                        continue to devote the resources needed to implement CAMS on schedule.
                        (Financial Statements Contract Audits Division: FSC-9860-8-0001)

                        Audit of BEA’s and ESA’s Consolidated
                        Financial Statements as of September 30, 1997
                             A contractor CPA firm performed an audit of BEA’s and ESA’s
                        Consolidated Statement of Financial Position as of September 30, 1997,
                        and the related consolidated statements of operations and changes in net
                        position. The firm was able to render unqualified opinions on the
                        statements, indicating that significant improvements had been made to
                        BEA’s and ESA’s financial and accounting practices over the past years.

28                     Commerce IG Semiannual Report                                     March 1998
                                                   Economics and Statistics Administation


    Although the firm’s report on internal controls contained no material
weaknesses, it did identify one reportable condition related to controls over
NIST’s Financial Accounting and Reporting System, which is used in
preparing BEA’s and ESA’s financial statements. Since BEA and ESA
management are not responsible for the general controls over this system,
recommendations related to the system controls were directed to the
Department’s Office of Computer Services, which maintains the system’s
hardware and software used to process transactions and data.

    The firm also identified one instance of material non-compliance in its
report on compliance with laws and regulations regarding BEA’s and ESA’s
core financial management system. NIST’s Office of Financial Manage-
ment performs a significant portion of the financial transaction processing
and reporting for BEA and ESA. However, its Financial Accounting and
Reporting System does not maintain adequate commonality of data
elements or transaction processing sufficient to ensure timely, accurate,
and effective financial reporting, as required by federal regulations.

     The OIG also reviewed a draft version of the joint BEA-ESA
overview to the consolidated financial statements, and we shared our
observations and recommendations in a discussion paper and subsequent
meeting with management. We recommended that BEA and ESA improve
their discussion of results by strengthening performance measures and
improving the presentation of information to facilitate trend analyses and
assessment of the bureau’s success or failure to achieve performance
targets. Management was responsive to our comments, adding language
related to planned performance measures by goal and objective, while
stating that additional improvements will be made in future overviews.
(Financial Statements Contract Audits Division: FSC-10113-8-0001)

Census’ Atlanta Office Needs to Improve
Internal Controls over Bankcards
     In conjunction with an OIG plan to periodically review Commerce
units’ use of bankcards, we conducted an unannounced audit of bankcard
transactions at the Census Bureau’s Atlanta Regional Office for the
12-month period ended July 1997 to determine whether the purchases
were made in compliance with applicable federal and departmental require-
ments. The objectives of the bankcard program are to reduce administra-
tive procurement costs, improve cash management by expediting and
simplifying small purchases, and strengthen internal controls to eliminate
the vulnerabilities to fraud and abuse of other small purchase methods.



March 1998                               Commerce IG Semiannual Report                 29
Economics and Statistics Administation


                            We identified a number of minor deficiencies in the regional office’s
                        internal control practices, including: (1) bankcard activity was never
                        reviewed by the contracting office head, (2) bankcards were not always
                        stored in a secure location, (3) unauthorized card use was permitted and
                        prohibited items were purchased, (4) purchases were not preapproved,
                        receipt of goods was not documented, and property transaction forms
                        were not completed, (5) records were not properly maintained, and
                        (6) mandatory training was not performed. We also found that the office
                        did not promote competition for purchases over $2,500, as required.

                             We recommended that Census ensure that the Atlanta office follows
                        effective internal control procedures, and that the bureau conduct a follow-
                        up review of the office’s bankcard activity within 18 months of our report
                        and provide us with the results of that review. We also recommended that
                        the office be required to use competitive procedures for purchases over
                        $2,500. Census officials generally agreed with our recommendations,
                        stating they will ensure that our recommendation on internal controls is
                        carried out and that cardholders will be reminded in a formal memorandum
                        of the importance of the issues we addressed. (Atlanta Regional Office of
                        Audits: ATL-10316-8-0001)




30                     Commerce IG Semiannual Report                                   March 1998
                                        International
                                Trade Administration

Audit of FY 1997 Financial Statements                                            The International Trade
                                                                                 Administration is responsible for
     Under the OIG’s direction, a contractor CPA firm audited ITA’s              most non-agricultural U.S. trade
statements of financial position as of September 30, 1997, and 1996, and         issues and works with the Office of
the related statements of operations and changes in net position for the         the U.S. Trade Representative in
years then ended. The firm was unable to determine the amounts of the            coordinating U.S. trade policy. ITA
adjustments that may be necessary to fairly state the financial statement        has four principal units:
balances in accordance with OMB guidance. As a result, the scope of the          Market Access and Compliance.
                                                                                 MAC develops and implements
audit was not sufficient to enable the firm to express an opinion on the
                                                                                 international economic policies of
statements.
                                                                                 a bilateral, multilateral, or regional
                                                                                 nature. It promotes trade,
    The firm was also unable to audit material account balances because          investment, and commercial
of deficiencies in internal controls and automated systems. The nature and       relations, and maintains
extent of these deficiencies indicate serious problems in ITA’s financial        comprehensive commercial and
management. The material weaknesses in internal controls involved the            economic data on countries and
need for ITA to (1) provide adequate support for financial statement             regions of the world.
balances and sufficient reconciliations of those balances, (2) establish an      Trade Development. TD advises
effective personnel structure to ensure proper financial management              on international trade and
                                                                                 investment policies pertaining to
control over its operations, (3) address the risk of its financial statements
                                                                                 U.S. industrial sectors, carries out
being interrupted at the end of FY 1998 should the accounting systems
                                                                                 programs to strengthen domestic
provider decide to discontinue servicing the system, (4) provide for suffi-      export competitiveness, and
cient segregation of functions, (5) establish adequate financial systems to      promotes U.S. industry’s
identify and record overseas activity, and (6) perform key reconciliations       increased participation in
to ensure that all cash collections are properly deposited and recorded.         international markets.
                                                                                 Import Administration. IA
     The firm also reported several instances of material noncompliance          defends American industry against
with applicable laws and regulations that affected its decision to disclaim an   injurious and unfair trade practices
opinion. Among these were ITA’s failure to meet the requirements of              by administering the antidumping
                                                                                 and countervailing duty laws of the
Section 2 of Federal Managers’ Financial Integrity Act in regard to material
                                                                                 United States, and enforcing other
weaknesses in its financial management system; correct deficiencies in its
                                                                                 trade laws and agreements
internal control and financial management system in order to comply with         negotiated to address such trade
OMB Circular No. A-127; transfer to its trust fund an amount equal to the        practices.
current accrual for voluntary foreign service national separation pay; and       U.S. & Foreign Commercial
adopt indirect cost allocation practices that enable it to ascertain whether     Service. US&FCS promotes the
its activities are operating on a full-cost-recovery basis. In addition, ITA     exports of U.S. companies and
did not adhere to other OMB guidance and did not substantially comply            helps small and medium-size
with the Federal Financial Management Improvement Act.                           businesses market their goods and
                                                                                 services abroad. It has 98 domes-
                                                                                 tic offices and 138 overseas posts
     At ITA’s request, we had developed a blueprint in July 1997 to
                                                                                 in 75 countries.
improve the bureau’s financial management and the quality of its financial
statements by identifying critical areas needing immediate corrective
actions (see September 1997 issue, page 29). The late date of the blue-
print, however, limited ITA’s ability to correct most of these weaknesses
before September 30, 1997.


March 1998                               Commerce IG Semiannual Report                                              31
International Trade Administration


                                                 In reviewing the draft overview to ITA’s financial statements, we
               International                 found numerous strengths, such as definitions of the performance
                   Trade                     measures being used and a discussion of financial management challenges
              Administration                 and plans, but also some deficiencies that require attention. Specifically,
                                             ITA needs to include several years worth of data, a comparison of actual
                            Market
    Import                                   results to target performance levels, a stronger discussion of performance
                          Access and
 Administration
                          Compliance         results and plans for corrective action, and better linkage of results to goals
                                             and objectives.
        Trade            U.S. and Foreign
                          Commercial
     Development
                             Service
                                                 Finally, although ITA appointed a Chief Financial Officer in early
                                             FY 1998, the appointment of a Deputy CFO is still pending. We recom-
                                             mend that the person appointed to this position have the strong financial
                                             background that is needed to resolve the accounting challenges facing ITA.
                                             (Financial Statements Contract Audits Division: FSC-9862-8-0001)

                                             Trade Event Planning and
                                             Management Need Improvement
                                                  ITA supports the administration’s export promotion strategy through
                                             its three components that are involved in trade events—Trade
                                             Development (TD), U.S. and Foreign Commercial Service (US&FCS),
                                             and Market Access and Compliance. ITA defines a trade event as “any
                                             organized activity that places U.S. exporters in contact with foreign
                                             markets.”

                                                 In 1993 ITA established a Trade Events Board to provide policy
                                             direction on trade event planning, management, and financial matters. An
                                             interagency working group, the Trade Events Planning Committee, reviews
                                             trade event planning and management. The Trade Events Management
                                             System (TEMS), an ITA-wide system located within US&FCS, serves as
                                             ITA’s planning and financial data system for trade events.

                                                 An OIG audit of trade events focused primarily on TD events held in
                                             FY 1996. Of the 419 ITA trade events held during that year, TD was
                                             responsible for 83. However, because most of ITA’s trade events are
                                             carried out by US&FCS, we also evaluated certain aspects of US&FCS’s
                                             FY 1996 events. Our audit identified a number of deficiencies that hamper
                                             ITA’s ability to pursue its trade event activities.

                                             !       Communication and coordination between TD offices and
                                                     US&FCS posts need improvement. TD event officers should give
                                                     posts necessary information sufficiently in advance of events to
                                                     allow for adequate preparation and increase the potential for
                                                     success.


32                                          Commerce IG Semiannual Report                                      March 1998
                                                             International Trade Administration


!       Internal controls are needed throughout ITA to ensure that trade
        events, when canceled, are canceled in a proper and timely
        manner. Having the greatest percentage of canceled trade events,
        TD should establish an internal quality review procedure to
        evaluate its proposed events.

!       The end-of-show data in TEMS is incomplete and does not
        provide the kind of management information that would be most
        useful for ITA. Moreover, ITA management needs to decide what
        role TEMS will have in providing performance measures.

!       US&FCS trade event performance measures presented in ITA’s
        budget submission relied on data from the posts, and not on
        TEMS, but the basis for the data used could not be explained by
        ITA’s Office of Financial Management. Performance measures
        need to be clearly defined, and if ITA management intends to rely
        on TEMS for performance data, guidelines and internal controls
        are needed to ensure that this data is entered on a timely basis.

!       Neither TEMS nor Office of Financial Management records can
        be used to determine the financial status of individual trade events,
        as TEMS lacks final obligation reports for most events, and many
        events do not have unique project numbers in Financial Manage-
        ment’s records.

!       The effectiveness of TD’s principal types of trade event activities
        has not been assessed to determine if they represent an effective
        use of ITA resources.

We made a number of recommendations to correct these deficiencies. ITA
generally agreed with our findings and recommendations. (International
Audits Division: IAD-9714-8-0001)

Award Recipient Did Not Meet Goals or
Provide Required Cash Contribution
    In 1994 ITA awarded a $420,000 cooperative agreement to a New
England nonprofit organization as the federal share of a $4 million project
to develop a web site to serve as an electronic environmental business and
technology information source. The project’s goals were to establish and
strengthen links between Mexican and American companies for marketing
U.S. environmental technology to Mexico. The award, which was for a
three-year period ending September 30, 1997, was later supplemented with
another $38,000 in ITA funds.


March 1998                              Commerce IG Semiannual Report                        33
International Trade Administration


                             We audited the project for the first two years of the award period and
                         determined that, although the recipient had drawn down $434,571 of
                         federal funds to develop the web site, it had failed to provide its required
                         matching share or to meet projected financial and programmatic goals.
                         Specifically, we found that the recipient did not:

                         !       Provide any cash contributions to the project. In-kind
                                 contributions were provided, but the award required one-half of
                                 the non-federal match to be in cash.

                         !       Meet its revenue goals. Although it had proposed paying for
                                 $2 million of the project with program income, it had not
                                 generated any income during the period we reviewed.

                         !       Include all the information originally proposed for the web
                                 site. Moreover, the information that was included was widely
                                 available from other sources.

                             We recommended that the Department disallow $919,061 in
                         questioned costs, recover the entire $434,571 of disbursed federal funds,
                         terminate the award, and deobligate the remaining $23,429 of undisbursed
                         federal funds. The recipient has provided no substantive response to our
                         findings. (Atlanta Regional Office of Audits: ATL-10082-8-0001)

                         Import Administration Needs to Identify and
                         Correct Causes of Errors in AD/CVD Program
                             At the request of the Assistant Secretary for Import Administration
                         (IA), we reviewed the Antidumping/Countervailing Duty (AD/CVD)
                         program to evaluate the quality of the work performed on antidumping
                         investigations and administrative reviews. Concerned about the quality of
                         the work performed in AD/CVD cases, he asked for our independent
                         evaluation and any recommendations for improvement.

                             In an October 1997 memorandum to the Assistant Secretary, we
                         identified one issue that warranted his attention: IA calculation errors that
                         resulted in inaccurate duty margin determinations. In conducting our
                         evaluation, we selected a random sample of 27 of 198 antidumping
                         investigations and administrative reviews that had final determinations in
                         1996 and 1997. We then analyzed the changes in duty margins between
                         the preliminary and final determinations to see if the changes were the
                         result of IA errors.




34                      Commerce IG Semiannual Report                                     March 1998
                                                             International Trade Administration


    In more than half of the cases in our sample, calculation errors by IA
analysts had resulted in inaccurate determinations. Moreover, these errors
were identified not by IA’s review process, but by attorneys for
respondents and petitioners. IA’s correction of these errors in some cases
resulted in significant changes to the duty margin determinations. The
number of IA errors, and the fact that they were not identified during the
internal review process, indicated a serious problem.

     We suggested that IA categorize and summarize errors made in
investigations and reviews to help identify which of its units are performing
well or poorly, determine the frequency and types of errors made, and
implement solutions to correct the causes of the errors. Because of steps
IA has already taken to improve quality, we will wait to see the results of
the actions it takes to implement our suggestions before deciding whether
to do additional audit work in this area. (International Audits Division)




March 1998                               Commerce IG Semiannual Report                       35
                                       Minority Business
                                       Development Agency

The Minority Business
                                        Using Cooperative Agreements
Development Agency was                  Will Strengthen MBOC Program
created to help minority-owned
and operated businesses achieve              As part of the OIG’s Department-wide review of interagency and
effective and equal participation in    other agreements, we reviewed MBDA’s use of joint project agreements
the American free enterprise            for its Minority Business Opportunity Committee program. MBOCs are a
system, and overcome the social
                                        collaboration between MBDA and other federal, local, or quasi-
and economic disadvantages that
have limited their participation in
                                        governmental organizations that are responsible for planning, creating,
the past. MBDA provides                 coordinating, and delivering resources to promote U.S. minority businesses
management and technical                in the national and global economies. Currently, there are 10 MBOCs
assistance to minority firms upon       operated by city, regional, and federal organizations.
request, primarily through a
network of business development             We recommended that MBDA begin using cooperative agreements,
centers. It also promotes and           instead of joint project agreements, to provide financial assistance to
coordinates the efforts of other        MBOCs. The use of cooperative agreements should improve the award
federal agencies in assisting or        process, and strengthen MBDA and departmental oversight and monitoring
providing market opportunities for
                                        of MBOCs, especially as the program continues to grow.
minority businesses.

                                            We also recommended that MBDA take other actions to improve the
                                        MBOC program that include introducing competition into the award
                                        process; implementing and retaining a one-year, multiple award system;
                                        and eliminating irregular award or renewal actions, such as retroactive
                                        extensions. MBDA agreed with our observations and is taking steps to
                                        implement our recommendations. (Office of Inspections and Program
                                        Evaluations: IPE-10309)

                                        Audit of FY 1997 Financial Statements
                                             The OIG contracted with a CPA firm to audit MBDA’s statements of
                                        financial position as of September 30, 1997, and 1996, and the related
                                        statements of operations and changes in net position for the years then
                                        ended. The firm expressed an unqualified opinion on the statements,
                                        indicating the existence of an internal control structure that facilitates the
                                        preparation of reliable accounting and financial information.

                                            The auditors’ report on internal controls did, however, cite two
                                        reportable conditions, which identified the need for MBDA to:

                                        !       Review year-end financial reporting, including the estimation
                                                of accrued grant expenditures. EDA is responsible for accruing
                                                MBDA’s unreimbursed grant expenses based on a percentage of
                                                the balance of unliquidated grant obligations at the end of each
                                                year. Because it did not consider the effect of late and unliquidated
                                                obligations in its calculations, EDA over-accrued MBDA’s grant
                                                expenses payable by about $1 million.
36                                     Commerce IG Semiannual Report                                      March 1998
Minority Business Development Agency


!       Improve controls over the Financial Accounting and
        Reporting System. The firm identified one reportable condition                  Minority Business
        related to controls over the Financial Accounting and Reporting                   Development
        System administered by NIST, which provides accounting services                      Agency
        for MBDA. Since MBDA is not responsible for the general
        controls over this system, recommendations related to the system        Finance and           Strategic
                                                                               Administration         Planning
        controls were directed to the Department’s Office of Computer
        Services, which maintains the system’s hardware and software
        used to process transactions and data.                                  Program                External
                                                                               Development              Affairs
    The CPA firm’s report on compliance with laws and regulations
identified one instance of material noncompliance. MBDA’s core financial
management system does not comply with certain Federal Financial
Management Improvement Act requirements for federal financial
management systems; for example, the Financial Accounting and
Reporting System does not maintain adequate commonality of data
elements and transaction processing.

    In response to OIG suggestions, MBDA made a number of
improvements to its financial statements overview. However, MBDA
needs to strengthen its reported results of program performance to
facilitate trend analyses and the assessment of whether target performance
levels are being achieved. (Financial Statements Contract Audits
Division: FSC-9863-8-0001)

Internal Disagreement Over Questioned Costs
Resolved, but Recipient Appeals Decision
    In the prior two issues of this report (see March 1997 issue, page 38,
and September 1997 issue, page 32), we reported on a financial assistance
audit, ATL-8882-7-0001, that questioned $675,000 of costs claimed by a
for-profit consulting firm operating a minority enterprise growth assistance
center. In the resolution process, the OIG and the Department’s Office of
Executive Assistance Management agreed to disallow $455,325 of the
questioned costs. However, agreement could not be reached on an
additional $129,671 in questioned costs, and the matter was elevated to the
Deputy Secretary for decision. The Deputy Secretary determined to allow
$112,811 of the disputed costs, which related to personnel, and to disallow
the other $16,860, which related to equipment.

     In February 1998, an audit resolution determination letter was sent to
the recipient, informing it of the decision. In March, the recipient
submitted an appeal, which is in process.



March 1998                               Commerce IG Semiannual Report                                            37
                                     National Oceanic and
                                     Atmospheric Administration

The National Oceanic and
                                      Audit of FY 1997 Financial Statements
Atmospheric Administration
studies climate and global change;         A contractor CPA firm audited NOAA’s consolidated statement of
ensures protection of coastal         financial position as of September 30, 1997, and the related consolidated
oceans and management of              statement of operations and changes in net position for the year then
marine resources; provides            ended. The firm expressed a qualified opinion on the statement of financial
weather services; and manages         position because NOAA (1) had no system to accurately and completely
worldwide environmental data. It      account for all of its capitalizable property and equipment, (2) was unable
does this through the following       to support the classification of net position balances between appropriation
organizations:
                                      categories, and (3) received later than expected an actuarial valuation
National Weather Service. NWS
reports the weather of the United     relating to the NOAA Corps’ liability for retirement benefits. NOAA
States and provides weather           received a disclaimer of opinion on its statement of operations and changes
forecasts and warnings to the         in net position because of the effects of the disclaimer in the previous year.
general public.
National Ocean Service. NOS                We commend NOAA management and staff on the significant
issues nautical and aeronautical      progress made since the prior year’s audit. Whereas the FY 1996 audit
charts; performs geodetic surveys;    resulted in a disclaimer and identified 21 reportable conditions, of which
conducts research; and develops       11 were material weaknesses, the FY 1997 audit expressed a qualified
policies on ocean mining and          opinion and identified 17 reportable conditions, of which 6 were material
energy.
                                      weaknesses. The material weaknesses related to the need for NOAA to
National Marine Fisheries
Service. NMFS conducts a              (1) improve the preparation, analysis, and monitoring of financial informa-
program of management,                tion, (2) make the financial reporting structure consistent with the bureau’s
research, and services related to     organizational structure, (3) support and reconcile “on-top” adjustments to
the protection and rational use of    the financial statements, (4) support and reconcile budgetary execution
living marine resources.              transactions, (5) correct property, plant, and equipment detail records, and
National Environmental Satellite,     (6) improve the monitoring of grant recipients.
Data, and Information Service.
NESDIS observes the environment           In its report on compliance with laws and regulations, the CPA firm
by operating a national satellite     identified three instances of noncompliance: NOAA did not fully fund its
system.
                                      capital leases; it did not report all of the above-mentioned material
Office of Oceanic and
Atmospheric Research. OAR             weaknesses in its 1997 Federal Managers’ Financial Integrity Act report;
conducts research related to the      and its financial management systems do not substantially comply with the
oceans and inland waters, the         Federal Financial Management Improvement Act.
lower and upper atmosphere,
space environment, and the Earth.          Our review of the management discussion and analysis (similar to an
Office of NOAA Corps                  overview) to NOAA’s financial statements identified a number of strengths.
Operations. The Corps is the          For example, the document identifies the seven NOAA goals, with
nation’s seventh uniformed            associated performance measures, that support the Department’s mission
service. Its ships, aircraft, and     statement; discusses financial results and conditions; and presents output
personnel support NOAA’s
                                      and outcome measures. However, NOAA could still make improvements
activities throughout the world.
                                      by further strengthening reported performance measures, definitions of
                                      measures, and discussion of results; and providing additional discussion of
                                      trends.



38                                   Commerce IG Semiannual Report                                     March 1998
                                   National Oceanic and Atmospheric Administration


     To work toward improving its financial management, we encourage
NOAA to continue its efforts to recruit a Chief Financial Officer. Emphasis
should also be placed on hiring additional financial management personnel                            NOAA
to facilitate the prompt resolution of internal control deficiencies. Finally,
we encourage NOAA management to continue its efforts to make the
                                                                                     National                National
improvements to the internal control structure that are essential for                Weather                 Ocean
preparing its FY 1998 statements. (Financial Statements Contract Audits              Service                 Service
Division: FSC-9865-8-0001)
                                                                                     National
                                                                                  Marine Fisheries           NESDIS
NMFS Laboratory Network Needs Streamlining                                            Service


    The National Marine Fisheries Service strives to ensure the                   Oceanic and                NOAA
conservation and management of the nation’s living marine resources               Atmospheric                 Corps
                                                                                   Research                 Operations
through a laboratory network of 29 facilities located within five regions:
Northeast, Southeast, Southwest, Northwest, and Alaska. These facilities
perform research, data collection, and analysis to assist NMFS in
accomplishing its goals. Many of these facilities are greatly in need of
repair, and several renovation and new construction projects are planned
or underway.

     The OIG conducted a performance audit to assess streamlining and
reconfiguration opportunities within the NMFS laboratory network. We
evaluated the need for each facility to be at its current location, the overall
condition of each facility, and the utilization of both current and planned
facilities. We also explored any special considerations related to individual
facilities.

     We concluded that, in general, the NMFS laboratories are conducting
high-priority research in well-utilized facilities. We also identified several
opportunities for NMFS to streamline its field structure that could result in
a savings of approximately $6 million over two years, the period normally
used by this office to calculate savings for purposes of reporting under the
IG Act. However, believing that a five-year period offers a more useful
analysis for studies of this nature, we note that projected savings over five
years would be more than $25 million. We made the following recom-
mendations based on our observations of the five individual regions (see
illustration on the following page):

!       Northeast. We recommended closing the Milford, Connecticut,
        laboratory and transferring its programs to the new James J.
        Howard Marine Sciences laboratory in Sandy Hook, New Jersey.




March 1998                                Commerce IG Semiannual Report                                                  39
National Oceanic and Atmospheric Administration



                           OIG Recommended Changes
                           to NMFS Laboratory Network




                       !      Southeast. We recommended closing the National Seafood
                              Inspection Laboratory in Pascagoula, Mississippi, and transferring
                              the laboratory in Oxford, Maryland, and most of its programs to
                              the State of Maryland. Programmatic work being done at Oxford
                              that would continue to be NMFS’s responsibility should be
                              transferred to its Beaufort, North Carolina, laboratory. We also
                              recommended moving the programs and personnel from the Bay
                              St. Louis, Mississippi, and Panama City, Florida, laboratories into
                              space to be vacated at the Pascagoula laboratory.

                       !      Southwest. We recommended vacating the Tiburon, California,
                              laboratory, as planned by NMFS, and the La Jolla, California,
                              laboratory due to safety reasons, and transferring their programs
                              and personnel to Honolulu; Sand Point, Washington; Newport,
                              Oregon; and a proposed Santa Cruz, California, facility. As part of
                              this recommendation, the proposed Tiburon replacement facility at
                              Santa Cruz should be expanded to accommodate programs and
                              personnel from La Jolla.


40                    Commerce IG Semiannual Report                                  March 1998
                                   National Oceanic and Atmospheric Administration


!       Northwest. We considered the option of moving the programs for
        the Seattle-based Montlake laboratory to the Sand Point facility, in
        conjunction with the potential NMFS recommendation to relocate
        some of Sand Point’s programs to Auke Cape. Our analysis
        revealed that this option should not be implemented because of
        inadequate types and amounts of space available at Sand Point.

!       Alaska. We disagreed with NMFS’s plans to transfer some
        programs from the Sand Point laboratory to the proposed Auke
        Cape, Alaska, facility due to potential programmatic, utilization,
        and cost inefficiencies.

     In its recently submitted audit action plan, NOAA essentially disagreed
with all of our findings and recommendations, as well as our calculations
of the associated costs and benefits. We found NOAA’s arguments
unpersuasive and urged it to reassess its position and submit a revised
action plan. We noted that our recommendations should be acted on in a
manner that supports the Deputy Secretary’s March 16 memorandum on
the Department’s field office review. (Seattle Regional Office of Audits:
STL-8982-8-0001)

CZM and NERRS Programs Require
Management Attention to Increase Effectiveness
     NOAA’s Coastal Zone Management (CZM) and National Estuarine
Research Reserve System (NERRS) programs are federal/state
partnerships through which the federal government, specifically NOAA’s
National Ocean Service, assists the states in exercising their responsibilities
in the coastal zone and adjoining estuarines. The states’ role is to protect
and promote the wise use of land and water resources in the coastal zone.
Currently, 32 of the 35 coastal states, including those of the Great Lakes
and U.S. territories, have CZM programs that have been approved by
NOAA. Two additional state programs are in various stages of develop-
ment, and officials from the one remaining coastal state have expressed
interest in participating in the program.

    An OIG evaluation of the CZM and NERRS programs found that
while NOAA was successful in getting the programs off the ground in the
1970s, the next decade was a difficult one, particularly for the CZM
program. During the 1980s, the executive branch made several attempts to
dismantle the program, but support and continued funding from the
Congress and the coastal states kept the program intact. In the 1990s, the
CZM program made a strong comeback with support from the current
administration, Congress, and states. The program’s service to and


March 1998                                Commerce IG Semiannual Report           41
National Oceanic and Atmospheric Administration


                       relationships with state CZM managers and staffs have improved
                       dramatically, and collaborative outreach was extended to other NOAA
                       offices and federal agencies that have responsibilities in the coastal zone.

                           Although improvements have been made in the management and
                       operation of the CZM and NERRS programs, we found several issues and
                       concerns that warrant management attention:

                       !       NOAA coordination to aid coastal management is deficient.
                               NOAA has not effectively provided coastal zone decision-makers
                               with objective science and evaluative techniques needed to make
                               critical decisions. In addition, the National Ocean Service’s Office
                               of Ocean and Coastal Resource Management (OCRM) and the
                               newly created Coastal Services Center need to work more closely
                               together to improve service to coastal constituents.

                       !       Administration of CZM cooperative agreements warrants
                               attention. We found several cooperative agreement administration
                               areas that offer opportunities for streamlining, thereby permitting
                               more cooperative agreement funds to be spent on programmatic
                               rather than administrative duties. These include: (1) using multi-
                               year cooperative agreements, instead of the current annual
                               awards; (2) permitting oversight costs to overlap award periods;
                               and (3) improving the processing time on requests for no-cost
                               extensions of time on awards.

                       !       Current coastal nonpoint source pollution provisions are
                               unworkable. In 1990 a new section was added to the Coastal
                               Zone Management Act to address the impacts of nonpoint source
                               pollution on the water quality of the coast. The new section’s
                               ambitious scope and time frame have generated significant
                               controversy, and the states are having problems developing coastal
                               nonpoint pollution programs under the statute. The current
                               requirements of the statute are not workable without
                               improvements, such as extending the time frames for program
                               implementation.

                       !       The effectiveness of the CZM program has not been
                               measured. OCRM and the states have been unable to measure or
                               evaluate “on-the-ground” outcomes of the CZM program because
                               the necessary data has not been collected. OCRM needs to
                               develop a strategy to measure the effectiveness of the CZM
                               program, in order to understand what activities are best helping to
                               achieve the goals of the act and to make effective future decisions.


42                    Commerce IG Semiannual Report                                     March 1998
                                  National Oceanic and Atmospheric Administration


!       The full potential of the NERRS program is not being
        realized. The NERRS program faces a number of challenges in
        meeting its potential: (1) federal assistance has become inadequate
        to support the program’s ambitious goals; (2) NOAA has not fully
        supported the use of NERRS sites for NOAA-funded research;
        (3) the NERRS program needs to play a greater role in the
        scientific community and achieve better utilization of its sites; and
        (4) key education and research coordinator positions have been
        left vacant, in some cases for several years, after the start-up of
        new NERRS sites.

!       An initiative to develop a coastal and marine management
        computer information system lacks sufficient resources. The
        lack of a computerized information tracking system hampers the
        ability of OCRM and the grants management division to process
        grant applications and evaluate performance reports from the
        states. A new system is being developed to electronically process
        grant applications and performance reports. However, this prom-
        ising new system has suffered setbacks because of insufficient
        resources.

    NOAA agreed with all of the report’s recommendations. The bureau
either has taken steps that satisfy the intent of the recommendations or will
implement changes or procedures in the near future. (Office of Inspections
and Program Evaluations: IPE-9044)

State Deficient in Federal Reporting
on Coastal Zone Management Program
    In July 1995, NOAA awarded a $2.3 million cooperative agreement to
a Northeastern state to assist in the development and implementation of an
effective coastal zone management program. The agreement required a
$2.1 million matching contribution from the state, bringing the total project
budget to more than $4.4 million.

    The OIG conducted an audit of the project’s two-year performance
period, which ended June 30, 1997. We found that the state (1) submitted
quarterly financial status reports to NOAA that did not accurately and
completely report its federal expenditures, (2) did not submit required
monthly federal cash transaction reports to NOAA, and (3) charged more
than $48,000 in questioned personnel, fringe benefit, and indirect costs,
including about $39,000 not allocable to the project and about $9,000 of
indirect costs that exceeded the approved budget.



March 1998                               Commerce IG Semiannual Report          43
National Oceanic and Atmospheric Administration


                             The state’s failure to accurately and completely report its federal
                       expenditures and cash disbursements has restricted NOAA’s ability to
                       monitor compliance with the award’s financial provisions. When we
                       brought this matter to the state’s attention, it acknowledged the reporting
                       deficiencies and immediately addressed some of them by revising the
                       previously submitted quarterly reports to correctly report federal
                       expenditures. Nevertheless, we recommended that NOAA direct the state
                       to accurately and completely report its federal expenditures in financial
                       status reports for current and future CZM awards, and submit all required
                       federal cash transaction reports. We also recommended that NOAA
                       disallow questioned costs totaling $48,275, disburse $84,930 to the state as
                       its final award payment, and deobligate the remaining award funds of
                       $26,465. (Atlanta Regional Office of Audits: ATL-10278-8-0001)

                       Improvements Needed in NWS Severe Storm
                       Verification Process and Statistics
                            The National Weather Service helps protect the nation’s people and
                       property from the dangerous effects of severe and hazardous weather by
                       issuing severe weather and flood warnings, public forecasts, and
                       advisories. It measures the effectiveness of its forecasting and severe
                       storm warnings through its verification process—a quality control process
                       that essentially matches warnings to actual weather observations and
                       compiles statistical results of forecasting performance.

                           NWS has made major advancements in the 1990s with new
                       technology and modernized operations. Advanced radars, new computer
                       systems, and other technological advances associated with NWS’s
                       modernization efforts have substantially improved its access to critical data
                       and its ability to forecast weather events. In fact, today NWS issues twice
                       as many severe thunderstorm and tornado warnings as it did in 1990.
                       Unfortunately, NWS’s severe storm verification process, which has
                       remained largely unchanged since its inception in 1979, does not reflect
                       NWS’s modernized technology and field office structure, staffing, and
                       workload requirements.

                           The OIG conducted an inspection of the severe storm verification
                       system to assess whether the verification process and statistics are valid
                       and reliable measures of NWS severe storm forecasting performance, and
                       to determine whether NWS’s modernization efforts have improved the
                       accuracy of forecasting.

                           As part of our evaluation, we conducted a comprehensive survey of all
                       forecast office warning coordination meteorologists—the primary liaisons


44                    Commerce IG Semiannual Report                                    March 1998
                                   National Oceanic and Atmospheric Administration


between weather forecast offices (WFOs) and the user community. Our
survey questionnaire, developed in consultation with senior and cognizant
NWS personnel, provided considerable insight into the NWS process and
procedures for verifying severe and hazardous weather.

    We found that NWS’s modernization initiatives have resulted in more
accurate forecasting; its verification statistics are vital indicators and, for
the most part, valid measures of performance; and non-technological
developments have also resulted in better forecasting and verification.
However, based on the results of our survey, which had a 91-percent
return rate, and other evaluation efforts, we concluded that the verification
of severe and hazardous weather forecasting can be done more efficiently.
We believe that with certain key changes and improved internal controls,
NWS can significantly enhance its verification data credibility and
dependability. Specifically, we recommended that NWS:

!       Increase quality control to reduce the subjectivity of
        verification information. We found that WFO information is
        susceptible to inaccuracies and uneven quality. In addition, WFOs
        lack a standardized review process, local storm reports are not
        consistently entered correctly, verification training is inadequate,
        and automated data checks are incomplete.

!       Implement a verification system that provides immediate
        feedback and reduce the backlog of unpublished data on
        severe weather events. NWS is not providing rapid feedback to
        WFOs, eliminating redundant data input of local storm reports and
        event information, or reducing the large backlog of unissued
        publications that serve as NWS’s historical climatological record.

!       Reassess wind and hail warning thresholds to see if the
        number of marginally severe storm warnings can be reduced
        without any increased danger to public safety. From 1990 to
        1996, the number of warnings that just meet the minimum
        threshold level for verification more than doubled. This increase
        represents a disproportionately high percentage of the NWS/WFO
        verification workload.

!       Strengthen its headquarters and regional office oversight
        roles and responsibilities. NWS’s Office of Meteorology should
        reestablish its National Verification Committee to evaluate all of its
        verification programs, revise its verification manual to include new
        techniques, and update the requirements and goals of each
        verification program area in its National Verification Plan.


March 1998                                Commerce IG Semiannual Report           45
National Oceanic and Atmospheric Administration


                       !       Expand the National Hurricane Center’s verification efforts
                               and test its emergency backup preparedness. The Center needs
                               to systematically (1) verify and document the portion of each
                               warning area that did or did not receive hurricane force winds, and
                               (2) verify its hurricane model wind radii forecasts. In addition, the
                               Center’s backup plan should be tested during the next off-season
                               to ensure its effectiveness in an emergency.

                           NOAA agreed with the report’s findings and recommendations, and
                       has taken several steps to address our concerns. (Office of Inspections and
                       Program Evaluations: IPE-9255)

                       NOAA Did Not Properly Record
                       Indirect Costs for Superfund Programs
                           Under an interagency agreement with the Environmental Protection
                       Agency, NOAA receives approximately $2 million annually from EPA’s
                       Hazardous Substance Response Trust Fund, commonly known as the
                       Superfund, to provide technical assistance and research on the risk to
                       coastal resources and ecosystems from hazardous waste sites and spills.

                            The Superfund Amendment and Reauthorization Act of 1986 requires
                       the OIG to conduct audits of all payments, obligations, reimbursements,
                       and other uses of the Superfund. We reviewed NOAA’s Superfund
                       interagency agreements for FYs 1995 and 1996 and found that costs billed
                       to EPA under the agreements were properly and accurately recorded, with
                       the exception of indirect costs.

                            We determined that NOAA is not in compliance with EPA policy
                       regarding allowable indirect costs. Billings to EPA contain charges for
                       general, agencywide indirect costs, which is in conflict with the terms and
                       conditions of the agreements and EPA policy guidance. We also
                       determined that the audit of the Superfund interagency agreements could
                       be incorporated into the scope of NOAA’s annual financial statement audit.
                       Past audit requirements under the Superfund statutes were superceded by
                       passage of the Chief Financial Officers Act of 1990. Current EPA policy is
                       to include tests of Superfund transactions within the scope of the annual
                       audit of financial statements required by the CFO Act.

                           We recommended that NOAA (1) clarify EPA’s policy regarding
                       allowable indirect charges, and modify either the agreements or the billing
                       practices, and (2) request that future audits of NOAA’s financial statements
                       include sufficient testing of NOAA/EPA Superfund transactions to satisfy
                       Superfund audit requirements. Following the end of the reporting period,


46                    Commerce IG Semiannual Report                                    March 1998
                                   National Oceanic and Atmospheric Administration


NOAA agreed with our recommendation that testing of Superfund
transactions be included in future audits of its financial statements. (Seattle
Regional Office of Audits: STL-10140-8-0001)

Accounting System and Management Practices
Prevented Negotiation of Indirect Cost Rate
     A nonprofit foundation was incorporated in West Virginia in 1993 to
facilitate economic development in the state by promoting high-technology
industries and research facilities. The foundation’s activities focus on
research, education, and economic development. It has also constructed a
$12 million, 110,000-square-foot office and business incubator facility,
financed in part with EDA grant funds.

     Since its inception, the foundation has been awarded 15 grants and
contracts totaling about $22 million from federal, state, and private
sources. The Department of Defense was the foundation’s cognizant
federal agency until October 1996, but did not audit or negotiate indirect
cost rates for the organization. At that time, Commerce became the
cognizant agency as a result of a $5.85 million NOAA cooperative
agreement made to the foundation to help the agency meet accelerating
demands for storage and retrieval of data maintained at national
environmental data centers. NOAA requested that the OIG review the
foundation’s indirect cost proposal and negotiate an indirect cost rate to be
used for the award. We also performed a survey to assess the adequacy of
the foundation’s financial management system.

    The foundation’s accounting system and management practices, along
with unforeseen delays, prevented the negotiation of an indirect cost rate
for FY 1997. We found that the accounting system was not integrated and
was cumbersome and prone to error, and that the foundation’s pro-
curement practices limited free and open competition. In addition, the
foundation did not report to EDA on its use of rental income earned on the
federally financed facility, and it improperly classified land improved with
federal funds as investment property.

    In July 1997, NOAA and the foundation agreed to terminate the
cooperative agreement for the convenience of both parties. Under the
circumstances, the report recommendations with respect to the NOAA
project are now moot; however, our findings remain viable in connection
with the EDA funding and other federal awards, and we plan to address
them in a separate audit report to EDA. At NOAA’s request, we are also
conducting an audit of the foundation’s termination claim and its actual
indirect costs. (Atlanta Regional Office of Audits: ATL-9259-8-0001)


March 1998                                Commerce IG Semiannual Report           47
National Oceanic and Atmospheric Administration


                       Government Obtains $3.15 Million Settlement
                       of Potential False Claims Act Suit
                            In March 1998, a NOAA contractor and its successor company agreed
                       to pay the United States $3.15 million to settle claims that the contractor
                       sold the government spare parts for the Next Generation Weather Radar
                       (NEXRAD) system at greatly inflated prices. The settlement resulted from
                       an OIG investigation which concluded that the contractor knew that prices
                       paid to a subcontractor for the parts were inflated when it passed on those
                       prices to the government in connection with the cost reimbursable portion
                       of its NEXRAD contract. We found that the contractor had agreed to pay
                       the inflated prices in exchange for receiving discounts from the subcontrac-
                       tor on other items it was purchasing under the fixed-price portion of the
                       contract.

                            Three months earlier, the United States filed suit against the
                       subcontractor in U.S. District Court for the Eastern District of Virginia,
                       charging the company with multiple violations of the False Claims Act
                       arising out of the same series of transactions. The lawsuit cites the quid
                       pro quo arrangement between the subcontractor and contractor, and also
                       alleges that the subcontractor represented to the government that it did not
                       discount spare parts, when, in fact, it had previously offered and granted
                       such discounts to the contractor. A pretrial conference is scheduled for
                       July and it is anticipated that a trial date will be set at that time. (Financial
                       Fraud Unit)

                       Federal Contractor Indicted for
                       False Statements and Conspiracy
                            A two-year investigation of a California manufacturer and distributor
                       of electronic components has resulted in indictments against the firm and
                       three of its employees for making false statements to the United States,
                       conspiracy, and mail fraud. A related company and one of its employees
                       were also charged. According to the indictments, the firm contracted to sell
                       high-reliability semiconductors to the government under a series of
                       contracts and subcontracts that required the semiconductors to be built and
                       tested according to various specifications. Instead of conducting required
                       tests and inspections, however, the firm directed that they be skipped,
                       altered, or falsified. This conduct was allegedly part of a conspiracy to
                       defraud the government by providing non-conforming parts which were
                       falsely certified as meeting all requirements. Some of the improperly tested
                       semiconductors were placed in units of the Department’s NEXRAD
                       system; others were used by the Department of Defense, Federal Aviation
                       Administration, and National Aeronautics and Space Administration.

48                    Commerce IG Semiannual Report                                       March 1998
                                  National Oceanic and Atmospheric Administration


    The indictments grew out of a joint investigative effort by the
Commerce and NASA OIGs, the Defense Criminal Investigative Service,
the Defense Contract Management Command, and the Army Criminal
Investigative Command. (Denver Field Office of Investigations)

In Brief
Conviction and Sentencing. In December 1997, a former NWS
employee was convicted of theft in U.S. District Court for the District of
Maryland after an OIG investigation disclosed that she had used an agency
bankcard to make personal purchases totaling more than $1,000. In March
1998, she was sentenced to two years’ probation and 50 hours of
community service, fined $150, and ordered to make full restitution to the
government. (Silver Spring Field Office of Investigations)

Reprimand. A senior NOAA official received a letter of reprimand as the
result of an OIG investigation which found that he had used frequent flier
miles earned on official business for personal travel. (Washington Field
Office of Investigations)

Audit Reports Unresolved for Over Six Months
    As of March 31, 1998, one financial assistance audit report and three
preaward contract audit reports had recommendations unresolved for more
than six months.

University of Hawaii

    This financial assistance audit report, ATL-9999-5-0753 (see
September 1995 issue, page 99) was an OMB Circular A-133 audit that
questioned $1.1 million of claimed costs. NOAA requested that resolution
be deferred until a final determination of the allowability of costs has been
made by the Defense Contract Audit Agency (DCAA). NOAA has
received the DCAA report and has submitted a draft audit resolution
proposal for OIG review. We have provided comments to NOAA and are
awaiting its response.

Preaward Contract Audit Report

   The three NOAA preaward contract audit reports are discussed on
page 79.




March 1998                               Commerce IG Semiannual Report          49
                                      National Telecommunications
                                      and Information Administration

The mission of the National
                                       Audit of FY 1997 Financial Statements
Telecommunications and
Information Administration is to            The OIG contracted with a CPA firm to audit NTIA’s combined
(a) serve through the Secretary of     statements of financial position as of September 30, 1997, and 1996, and
Commerce as the principal              the related combined statements of operations and changes in net position
executive branch advisor to the        for the years then ended. The firm expressed an unqualified opinion on the
President on domestic and              financial statements. The firm’s report on internal controls identified no
international communications and       material weaknesses or reportable conditions. The results of the audit
information policies, (b) ensure       clearly indicate that NTIA has taken major strides in improving its financial
effective and efficient federal use
                                       and accounting practices in recent years.
of the electromagnetic spectrum,
(c) develop with other federal
agencies policies for international         Our review of the overview to the financial statements found that it
communications and standards-          details how NTIA supports the three themes contained in the Department’s
setting organizations, (d) serve as    strategic plan and identifies performance measures, lists many accomplish-
the federal telecommunications         ments by activity, and includes some discussion on financial position and
research and engineering center,       results. NTIA could improve its discussion of results by strengthening
and (e) administer grants under        reported performance measurement data and enhancing the presentation of
the Information Infrastructure         information to facilitate trend analyses and assessments of whether target
Grants Program and the Public          levels of performance have been achieved. (Financial Statements
Telecommunications Facilities
                                       Contract Audits Division: FSC-9866-8-0001)
Program.

                                       Awardee Did Not Complete Some Grant
                                       Tasks and Incurred Questioned Costs
                                            In October 1994, NTIA awarded a grant for approximately $400,000
                                       to a regional government association in California to support its program of
                                       planning and organizing a government information network using the
                                       Internet. The total project budget, including local matching funds, was
                                       nearly $800,000.

                                           In June 1995, an OIG investigation was initiated based upon an
                                       anonymous allegation that the association had misused federal grant funds
                                       by directing employees to charge time to the grant when they were work-
                                       ing on other projects. While the allegations were not substantiated, we did
                                       discover that the association was using questionable accounting methods
                                       during the grant period.

                                            The OIG conducted a financial audit of the award and found that the
                                       association had incurred questioned costs of more than $138,000 because
                                       it did not accumulate costs in categories that matched categories in the
                                       grant award budget. In addition, although the association met overall grant
                                       goals by establishing an information network on the Internet, it failed to
                                       complete two minor project tasks. We recommended that the Department
                                       disallow the questioned costs and recover $65,000 in excess grant

50                                    Commerce IG Semiannual Report                                    March 1998
               National Telecommunications and Information Administration


disbursements; assess the significance of the tasks not completed, and
either modify the grant to eliminate the tasks or require the association to
complete them; and advise the grantee to use cost categories for                                 NTIA
accounting purposes that parallel cost items in federal awards.
                                                                                                                Policy
     The association stated that requirements for project goals were            Spectrum
                                                                                                              Analysis and
                                                                               Management
fulfilled, and that adequate management control was maintained by                                             Development
tracking the actual and budgeted costs for each expense category. The
Department decided that the association’s failure to complete the two          Telecom. and                   Institute for
                                                                                Information                    Telecom.
minor tasks was acceptable, but agreed that the association should change      Applications                    Sciences
its cost categories. (Denver Field Office of Investigations and Seattle
Regional Office of Audits: STL-9491-8-0001)
                                                                                              International
                                                                                                 Affairs
Allegations of Unallowable
Lobbying Costs Unfounded
     NTIA requested the OIG to perform an audit of an October 1995
grant to a West Coast organization, based on allegations of unallowable
lobbying that had been raised by a congressman, by a private organization,
and in hearings before a House subcommittee. NTIA awarded the
$400,000 grant, with a 50-percent matching share requirement, as part of
its Telecommunications and Information Infrastructure Assistance
Program. The grant was made to help the non-profit, member-funded
organization broaden access to its on-line membership network via the
Internet, establish a national training program, and conduct a national
outreach campaign.

    We concluded that the grantee had not used grant funds to lobby, as
defined in the applicable laws and federal regulations, and that its
performance was in accordance with NTIA grant requirements. We did
find some minor unallowable costs charged to the NTIA project; however,
the charges were offset by amounts overmatched by the grantee and
additional valid project costs incurred but not charged to the project.
Accordingly, no costs were questioned, and our report was issued without
recommendations. (Seattle Regional Office of Audits: STL-10522-8-0001)




March 1998                                Commerce IG Semiannual Report                                                       51
National Telecommunications and Information Administration


                        Staffing and Funding for the Office of
                        Spectrum Management Need Reevaluation
                            The OIG conducted an audit of the performance of NTIA’s Office of
                        Spectrum Management (OSM), which included a detailed review of its
                        funding, fee collection, and staffing practices. Although our field work
                        revealed no significant conditions meriting the issuance of an audit report,
                        we found several issues warranting management’s attention, which we
                        discussed in an October 1997 memorandum to the Assistant Secretary for
                        Communications and Information.

                             Specifically, resource assessments essential for effective long-range
                        spectrum planning have not been performed; hardware and software have
                        not been maintained to meet current and future needs; and inadequate
                        support has been provided for national and international policy
                        development and execution. OSM also lacks the personnel to fulfill its
                        responsibility of ensuring that other federal agencies are complying with
                        the conditions of their spectrum authorizations and using the limited
                        spectrum efficiently, or that radio interference problems are quickly
                        detected and corrected. We noted that these deficiencies may be
                        exacerbated because a large percentage of the OSM work force will
                        become eligible for retirement within the next three years. Furthermore,
                        Interdepartment Radio Advisory Committee member agencies have not
                        promptly paid their FY 1997 spectrum management fees to NTIA.

                             We suggested that NTIA (1) evaluate the work that OSM has been
                        unable to perform, determine priorities within the context of the agency’s
                        strategic plan, and begin planning to replace OSM staff who might retire
                        within the next three years; and (2) take appropriate action to collect
                        FY 1998 spectrum management fees in a timely fashion. (Economic
                        Development Audits Division)

                        Office of Spectrum Management Acted Properly
                        in Relocation and Licensing Decisions
                            The OIG conducted an audit of the role of OSM in the Federal
                        Communications Commission’s (FCC) decisions to relocate Digital
                        Electronic Messaging Service licenses and award a license to a specific
                        company. We conducted a detailed review of OSM’s actions to determine
                        whether NTIA met its statutory responsibilities for federal spectrum
                        management with respect to these decisions.




52                     Commerce IG Semiannual Report                                    March 1998
               National Telecommunications and Information Administration


    Our audit work revealed no significant conditions meriting the issuance
of an audit report. We found that OSM officials acted properly and
protected government interests by offering spectrum for the FCC to use in
the Messaging Service relocation. OSM officials also followed established
procedures for consulting with the Interdepartment Radio Advisory
Committee on the use of federal spectrum.

     We noted, however, that an FCC licensing bureau had issued
Messaging Service licenses without the knowledge of FCC headquarters or
OSM officials, even though the technology interfered with existing licenses
for federal government satellite operations in two geographic areas. It also
interfered with planned use by private-sector satellite communications
systems for which the U.S. government had negotiated an international
agreement. In a November 1997 memorandum to the Assistant Secretary
for Communications and Information, we suggested that NTIA work with
the FCC to establish a real-time licensing information system between FCC
licensing bureaus and OSM that would reduce the likelihood of issuing
licenses that interfere with federal spectrum use. (Economic Development
Audits Division)




March 1998                               Commerce IG Semiannual Report         53
                                      Patent and
                                      Trademark Office

The Patent and Trademark Office
                                       Better Space Planning Needed
administers the nation’s patent and    for Proposed Consolidated Facility
trademark laws. Patents are
granted, and trademarks                     In October 1995, PTO was granted congressional authorization to
registered, under a system             procure up to a 2.4 million-square-foot facility in northern Virginia to
intended to provide incentives to      consolidate its facilities and operations and accommodate space expansion
invent, to invest in research, to
                                       needs. In conjunction with the General Services Administration, PTO
commercialize new technology,
and to draw attention to inventions    plans to award a contract to a private developer to construct a new facility
that would otherwise go unnoticed.     or renovate an existing facility and lease it back to PTO for a period of at
PTO also collects, assembles,          least 20 years. The solicitation for offers calls for the construction of the
publishes, and disseminates            building shell, to include basic electrical and mechanical systems, which
technological information disclosed    will be “built out” upon completion of the interior design. It is anticipated
in patents.                            that the lease development contract will be awarded in October 1998, with
                                       occupancy to begin in November 2001.

                                            The OIG conducted an inspection to determine whether PTO is
                                       effectively managing the acquisition project, and if the facility and space
                                       expansion are justified. We found that PTO is managing many aspects of
                                       the lease/development procurement well: The PTO/GSA procurement
                                       strategy and its execution have generally been successful, and PTO has
                                       supported the basic requirements for and benefits of the new lease
                                       development based on its needs for modern, contiguous space.

                                           However, we are concerned about the following aspects of PTO’s
                                       planning and management of this major procurement:

                                       !       Space Planning. We found that PTO has failed to (1) finalize its
                                               space requirements, (2) reach an agreement with one of its major
                                               employee unions over working conditions related to space require-
                                               ments, and (3) factor in the potential savings and efficiencies
                                               possible through systems reengineering and automation.

                                       !       Build-Out Risk. We are concerned that the methods PTO used
                                               to pursue the build-out of the facility needlessly expose the
                                               government to increased cost risk. PTO’s strategy calls for a pool
                                               of $88 million to be set aside for the build-out, funded through the
                                               lease with the developer. However, the bureau also is planning to
                                               spend at least $29 million in additional funds for upgraded building
                                               systems and interiors. This process is flawed because the lease
                                               development project lacks a defined cost ceiling. Also, build-out
                                               specifications must be developed and issued by PTO upon award
                                               of the lease in order to limit the government’s exposure to
                                               schedule risk and the likelihood of costly delays and numerous
                                               change orders because of incomplete specifications.


54                                    Commerce IG Semiannual Report                                    March 1998
                                                                      Patent and Trademark Office


!       Lack of Interagency Agreement and Department Oversight.
        We also found that PTO does not have a formal interagency                          Patent and
        agreement with GSA. Without such an agreement, there are a                         Trademark
        number of important undefined factors that could adversely affect                    Office
        the project, including the fee structure for GSA’s efforts, PTO’s
                                                                                  Assistant            Assistant
        rights to turn back unneeded space, and GSA’s role as construc-         Commissioner        Commissioner
        tion manager. In addition, the Department has not provided PTO           for Patents        for Trademarks
        with sufficient real estate management oversight. In particular, the
        Department failed to foresee PTO’s late start and the slow               Associate                 Chief
                                                                                Commissioner            Information
        progress of its union discussions, which may delay award of the           and CFO                  Officer
        contract.

     We provided numerous recommendations to address our concerns.
PTO agreed to most of our findings and recommendations, but disagreed
strongly with others. Specifically, PTO agreed to incorporate space savings
in its draft Space Allocation Plan and execute an interagency agreement
with GSA. In addition, the Department has greatly increased its oversight
of the PTO facility project and recently added a chapter to its real property
management manual describing its policy regarding major facility projects.
However, PTO disagreed that the solicitation for offers, as drafted, does
not set a limit on the government’s liability for the build-out. PTO also
disagreed that failure to establish a contractual ceiling would increase the
project cost to the government. We find PTO’s arguments concerning
these two issues to be unpersuasive. (Office of Inspections and Program
Evaluations: IPE-9724)

PTO’s Information Systems Acquisition
Lacked Proper Transition Plans
     In February 1997, PTO awarded a $511 million, eight-year System
Development and Maintenance (SDM) contract to two contractors, ending
its 13-year Automated Patent System contract effective December 30,
1997. The purpose of the SDM contract was to consolidate APS and
various non-APS system contracts and to improve contractor performance
by maintaining ongoing competition for specific tasks. Crucial to PTO’s
business of examining and disseminating patents, APS allows examiners,
attorneys, and the public to electronically search patent databases and
enables PTO to service orders for patent and trademark documents. PTO
had relied on the previous contractor for almost every aspect of planning,
development, deployment, and maintenance of APS. The two SDM
contracts officially began on May 15, 1997.




March 1998                               Commerce IG Semiannual Report                                                55
Patent and Trademark Office


                           The OIG performed an inspection during the transition period to
                       evaluate whether PTO had made adequate preparations for the SDM
                       contractors to assume the previous contractor’s APS development and
                       maintenance activities. Specifically, we reviewed three aspects of the
                       transition that were directly related to system development and
                       maintenance: (1) transfer of APS materials, (2) training of the SDM
                       contractors, and (3) preparation for configuration management.

                            During our review, we found that although progress had been made
                       during the transition period, sufficient time and attention were not given to
                       the transfer of SDM activities to the new contractors. In addition, the lack
                       of a configuration management plan had impeded APS development and
                       maintenance. We recommended that PTO:

                       !       Extend the APS contract for a limited period to ensure that all
                               systems were transferred appropriately.

                       !       Develop and implement a configuration management plan that
                               included a final determination of which configuration management
                               system the SDM contractors would use immediately after the APS
                               contract expired.

                       !       Apply lessons learned to improve the transition process for non-
                               APS systems.

                       !       Increase training of the new SDM contractors for software
                               development and maintenance.

                       !       Improve the quality control of transferred material and ensure that
                               documentation deficiencies were remedied.

                       !       Improve transition management through the development of an
                               internal transition team.

                            PTO concurred with our first three recommendations. Most
                       importantly, the APS contract was extended from September 30 to the end
                       of December 1997, giving the SDM contractors more time to learn about
                       APS from the original contractor and fix APS problems. PTO also agreed
                       to rapidly complete developing APS configuration management procedures
                       so that the SDM contractors were able to access and manipulate the APS
                       application code in an efficient, orderly fashion.




56                    Commerce IG Semiannual Report                                    March 1998
                                                                      Patent and Trademark Office


    PTO disagreed with our other three recommendations, contending that
the SDM contractors have received adequate APS training, that the cost of
reviewing documentation for quality control is too high, and that its current
transition management approach is adequate. (Office of Systems
Evaluation: OSE-10084)

Audit of FY 1997 Financial Statements
     In its audit of PTO’s financial statements as of September 30, 1997,
and 1996, the OIG issued an unqualified opinion on the FY 1997 principal
statements, indicating that the bureau has an internal control structure that
facilitates the preparation of reliable accounting and financial information.

    Our tests of PTO’s compliance with selected provisions of applicable
laws and regulations disclosed no instances of material noncompliance.
Our review of the bureau’s internal control structure, however, disclosed
three matters that we deemed reportable conditions. The conditions
involved the need for PTO to improve procedures related to property,
strengthen the analysis and monitoring of financial information, and deposit
cash receipts more promptly.

     The fact that two of these reportable conditions had been categorized
as more serious material weaknesses in the prior year audit represents a
substantial improvement in internal controls. Despite this improvement, we
are concerned that several key financial management positions have yet to
be permanently filled, most notably the Associate Commissioner and Chief
Financial Officer and the Director of the Office of Budget.

     To continue to meet its commitment to preparing high-quality,
meaningful financial statements, PTO, like other agencies, will need to pay
particular attention to the accounting requirements set forth in OMB
Bulletin 97-01 and GPRA. We commend PTO’s initial efforts to meet
these new requirements. Besides participating as a pilot for the preparation
of a strategic plan, PTO has begun to implement an activity-based costing
methodology to capture costs in a way that should enable it to compile
financial and performance data in compliance with both the bulletin and
GPRA. For example, the overview to the FY 1997 financial statements
effectively presented performance and financial measures indicating the
bureau’s successes and challenges. (Financial Statements Audits
Division: FSD-9755-8-0001)




March 1998                               Commerce IG Semiannual Report                         57
Patent and Trademark Office


                       Increased Costs and Patent Pendency
                       Are Hampering Agency Productivity
                           As part of an OIG audit survey, a business analysis of PTO was
                       conducted to develop an overview of agency finances and operations in
                       order to evaluate its future prospects. In performing the analysis, we
                       focused extensively on financial and operational information included in
                       PTO’s audited financial statements and budgets.

                            We identified a number of critical issues facing PTO and concluded
                       that significant problems related to the patent business do not appear to be
                       adequately addressed. Three primary deficiencies were highlighted in our
                       analysis—rising costs, increased patent pendency, and a disappointing
                       effort to automate and reengineer the patent process. The principal
                       conclusions of our analysis are as follows:

                       !       PTO is fully recovering its costs. In the three years we have
                               audited its financial statements, PTO has shown revenues in
                               excess of expenses.

                       !       PTO’s overall financial condition is good, but its net position
                               (equity) is overstated. The agency maintains a bank account with
                               a balance of more than $500 million. However, we believe that
                               PTO’s net position is overstated because it includes the cumulative
                               amount of surcharge revenue withheld by the Congress, and such
                               funds are unlikely to be returned to PTO.

                       !       The cost of processing a patent application has increased and
                               could eventually require PTO to raise its fees above the
                               inflation rate. The cost of processing a patent application
                               increased at an estimated annual rate of 10 percent between 1992
                               and 1996, apparently due to patent automation and declining
                               productivity.

                       !       PTO’s overhead is significant and growing. Although PTO
                               officials maintain that administrative costs have been cut sharply,
                               some elements of overhead, such as mailroom services, have
                               merely been contracted out, and others, such as administration
                               and executive direction, have actually grown.




58                    Commerce IG Semiannual Report                                    March 1998
                                                                      Patent and Trademark Office


!       The productivity of patent examiners is declining, further
        increasing the cost of processing a patent. The number of
        hours required to examine a patent has increased from 18.1 to
        18.8 over the past five years. PTO attributes this decline in
        productivity primarily to the increasing complexity of technological
        patent applications.

!       Bottlenecks have developed in the pre-exam and post-exam
        process, contributing to the increase in pendency. The
        backlogs of applications awaiting processing in the pre-exam and
        post-exam areas have grown more rapidly than those awaiting
        actual examination. PTO management states that low FTE
        ceilings have prevented it from hiring additional staff to handle the
        growing number of applications.

!       Automation efforts have been disappointing. PTO’s strategy to
        solve its operational problems through automation and reengineer-
        ing has been ineffective. Many examiners still prefer paper files to
        the automated system, and few reengineering projects have shown
        results.

!       Trademark operations are more sound than patent
        operations. Trademarks’ costs of processing an application have
        been level, and it also has less overhead to support than patents as
        its automation plans have been more modest. However, new
        trademark applications are growing rapidly, making pendency a
        potential problem.

    We will use our analysis to plan future work, and we suggested that
PTO management use it to identify areas most in need of management
attention as it works to improve patent and trademark operations. (PTO
Audits Division)




March 1998                               Commerce IG Semiannual Report                         59
                                      Technology
                                      Administration

The Technology Administration
                                       Audit of TA’s FY 1997 Financial Statements
serves the needs of technology-
based industry, advocates federal           The OIG contracted with a CPA firm to audit TA’s statements of
actions and policies to speed the      financial position as of September 30, 1997, and 1996, and the related
transfer of technology from the        statements of operations and changes in net position for the years then
laboratory to the marketplace, and     ended. The firm expressed an unqualified opinion on the statements, and
removes barriers for commer-           reported no material weaknesses in its report on internal controls or
cializing new technologies by          instances of noncompliance in its report on compliance with laws and
industry. It includes three major      regulations. The results of the audit indicate that TA has been successful in
organizations:
                                       establishing internal controls that facilitate the preparation of reliable
Office of Technology Policy. OTP
works to raise national awareness      accounting and financial information.
of the competitive challenge,
promotes industry/government/               We reviewed a draft version of TA’s overview to its financial
university partnerships, fosters       statements, and provided management with a discussion paper highlighting
quick commercialization of federal     our recommendations. Specifically, we noted that TA could improve its
research results, promotes             discussion of results by (1) improving the linkage of its results to its goals,
dedication to quality, increases       objectives, and target performance levels, (2) strengthening its
industry’s access to and partici-      performance measures, and (3) improving the presentation of information
pation in foreign research and         to facilitate trend analyses and assessments of whether target levels of
development, and encourages the
                                       performance have been achieved. TA management was responsive to our
adoption of global standards.
National Institute of Standards        comments, making some changes, while stating that additional improve-
and Technology. NIST promotes          ments will be made in future overviews. (Financial Statements Contract
U.S. economic growth by working        Audits Division: FSC-9868-8-0001)
with industry to develop and apply
technology, measurements, and          Audit of NTIS’s FY 1997 Financial Statements
standards. NIST manages four
programs: the Advanced Technol-
                                            Under a contract with the OIG, a CPA firm audited NTIS’s statement
ogy Program, the Manufacturing
Extension Partnership Program, a       of financial position as of September 30, 1997, and the related statements
laboratory-based measurement           of operations and changes in net position and cash flows for the year then
and standards program, and the         ended. The firm expressed an unqualified opinion on the statement of
National Quality Program.              financial position. However, NTIS received a disclaimer of opinion on its
National Technical Information         statements of operations and changes in net position and cash flows
Service. NTIS is a self-supporting     because of the carryover effect of the qualified opinion expressed on the
agency that promotes the nation’s      prior year statement of financial position.
economic growth and job creation
by providing access to voluminous          The fact that NTIS received an unqualified opinion on its statement of
information that stimulates
                                       financial position represents a marked improvement in the bureau’s
innovation and discovery. NTIS
accomplishes this mission through      financial management. However, in their report on NTIS’s internal control
two major programs: information        structure, the auditors identified five reportable conditions, all of which
collection and dissemination to the    have been reported in prior audits. These conditions dealt with the need
public, and information and            for NTIS to improve controls over inventory (material weakness), improve
production services to federal         controls over cash disbursements, properly prepare and review reconcili-
agencies.                              ations with Treasury Department records, develop standard policies and
                                       procedures concerning elimination entries, and consistently apply policies
                                       related to the recording of fees, revenues, and advances.

60                                    Commerce IG Semiannual Report                                      March 1998
                                                                          Technology Administration


    The firm’s report on compliance with laws and regulations noted two
instances of noncompliance: (1) NTIS’s financial management systems
                                                                                         Technology
were not in compliance with the requirements of the Federal Financial                   Administration
Management Improvement Act of 1996, and (2) NTIS did not report
certain reportable conditions, including a material weakness, in its
1997 Federal Managers’ Financial Integrity Act report.
                                                                                 NIST                    NTIS
    We reviewed a draft of the overview to NTIS’s financial statements
and made a number of recommendations for improvement, some of which
the bureau implemented for the FY 1997 overview. Nevertheless, further                    Technology
improvements could be made in future overviews by including several                         Policy
years worth of data to facilitate trend analyses, comparing actual results to
target levels of performance, and strengthening discussions of performance
and financial results, as well as the performance measures themselves.

     Because of our concerns about NTIS’s financial position at year end
and prior year trends, the CPA firm expanded its audit scope to determine
whether the bureau could continue to operate as a going concern through
FY 1998. Although the firm concluded that NTIS will be “in the black” at
the end of FY 1998, we believe that the bureau’s financial position needs
to be closely monitored by management. If NTIS continues to lose money
at the current rate, it may not have sufficient funds to sustain operations
through FY 1999. (Financial Statements Contract Audits Division:
FSC-9867-8-0001)

Audit of NIST’s FY 1997 Financial Statements
    A CPA firm audited NIST’s combined statements of financial position
as of September 30, 1997, and 1996, and the related combined statements
of operations and changes in net position for the years then ended. The
firm expressed an unqualified opinion on the financial statements, which
indicates the agency’s progress in meeting the goals and objectives of the
CFO Act.

     The auditors’ report on internal controls identified no material
weaknesses, but one reportable condition: the need to appoint a Chief
Financial Officer. During FY 1997, the CFO position was filled on a
temporary basis by two individuals, and the appointment of a permanent
CFO is still pending. The auditors also identified a number of weaknesses
in the security of NIST’s information systems. These significant financial
management challenges will require the attention and leadership of a
permanent CFO.




March 1998                               Commerce IG Semiannual Report                                          61
Technology Administration


                          We reviewed a draft of the overview to NIST’s financial statements and
                      made a number of recommendations for improvement. In particular, NIST
                      can still strengthen its presentation of performance results. NIST was
                      responsive to our recommendations, making some changes to the FY 1997
                      overview and indicating a willingness to make further changes in future
                      years. (Financial Statements Contract Audits Division: FSC-9864-8-0001)

                      Accounting System Surveys and Audits
                      of NIST Financial Assistance Recipients
                          As noted in earlier issues of this report, the OIG has been performing a
                      series of accounting system surveys of first-time recipients of financial
                      assistance awards under NIST’s Advanced Technology and Manufacturing
                      Extension Partnership programs (see, for example, September 1997 issue,
                      page 49). During this semiannual period, key aspects of our work on NIST
                      financial assistance programs involved conducting surveys of MEP
                      recipients’ accounting systems, responding to a congressional request
                      seeking information on potential “double billing” in federal research and
                      technology programs, and conducting a closeout audit of a recipient of an
                      ATP cooperative agreement.

                      Manufacturing Extension Partnership Program

                           The 11 surveys reported on during this semiannual period covered
                      projects that had award periods of two to three years and total estimated
                      costs exceeding $51 million, with a federal share that could ultimately be as
                      much as $24 million. Eight of the surveys identified weaknesses in the
                      recipients’ financial management and accounting systems, most commonly
                      the failure to supply or document matching share funds, to properly claim
                      and document allowable costs, and to implement adequate administrative
                      policies and procedures.

                          Almost without exception, the recipients concurred with our findings
                      and agreed to take prompt corrective actions. Identifying these weaknesses
                      early in the award periods will help prevent future problems and avoid
                      questioned costs in later audits. (Denver Regional Office of Audits: DEN-
                      9365-8-0001, DEN-9555-8-0001, DEN-9556-8-0001, DEN-9641-8-0001,
                      DEN-9858-8-0001, DEN-9945-8-0001, DEN-9957-8-0001, DEN-10061-8-
                      0001, DEN-10070-8-0001, DEN-10071-8-0001, and DEN-10116-8-0001)

                      Congressional Request Related to Double Billing

                          At the request of the Chairman of the House Science Committee, we
                      provided information on the operations of three Department programs: ATP,


62                    Commerce IG Semiannual Report                                    March 1998
                                                                        Technology Administration


MEP, and the Small Business Innovation Research program. The first two
programs are unique to the Department of Commerce, while the third
operates governmentwide. The Committee’s concern was that companies
might be receiving financial assistance from more than one federal source
for the same or similar proposals, thereby increasing the risk of illegal
double billing.

    In examining NIST records, we found that no companies had received
awards from all three programs and that only four had received awards in
the same fiscal year from two of the programs. Our audits of these four
small businesses found no double billing. (Denver Regional Office of
Audits: DEN-10128-8-0001, DEN-10129-8-0001, DEN-10130-8-0001,
and DEN-10131-8-0001)

Advanced Technology Program

    At NIST’s request, we also conducted a final closeout audit of an ATP
cooperative agreement that had a total estimated federal share of nearly
$2 million. We recommended that NIST disallow about $103,000 in
questioned costs and deobligate about $1.4 million of unexpended funds
under the award. (Denver Regional Office of Audits: DEN-8970-8-0001)

Acting IG Testifies on Audit and
Inspection Work at NIST and NTIS
    On February 26, 1998, the Acting Inspector General testified at a
hearing held by the House Science Committee’s Subcommittee on
Technology on the Technology Administration’s budget. His statement
focused on three important TA program areas: NIST’s Capital Improve-
ments Facilities Program, NIST’s Advanced Technology Program, and
NTIS’s plans to become a performance-based organization.

    In discussing the CIFP, the statement described the series of major
reports we have issued in recent years and provided the current status of
NIST’s construction and renovation program (see page 11). The statement
also highlighted the OIG’s recent work on NIST accounting system
surveys (see page 62); NIST’s processes for selecting, monitoring, and
evaluating awards (see September 1995 issue, page 71, and March 1996
issue, page 60); the accounting practices of joint ventures (see September
1997 issue, page 50); and NIST’s administration of its authority to issue
multi-year awards (see September 1997 issue, page 48). Also discussed
were our concerns about NTIS’s ability to meet the prerequisites of
becoming a performance-based organization—a clearly defined mission
and the ability to generate sufficient revenues to support business
operations (see September 1997 issue, page 52).

March 1998                              Commerce IG Semiannual Report                          63
Technology Administration


                       NIST Properly Handled Superfund
                       Interagency Agreement with EPA
                           Under interagency agreements with the Environmental Protection
                       Agency, NIST conducts technical research to develop methods to
                       counteract the effects of toxic waste spills. Funds appropriated for these
                       agreements are made available through the Hazardous Substance Response
                       Trust Fund, known as the Superfund, which is used to identify the nation’s
                       hazardous waste sites, assign priorities to the risks they create, and work to
                       eliminate those risks.

                           The Superfund Amendments and Reauthorization Act of 1986
                       requires the OIG to audit all Department of Commerce payments,
                       obligations, reimbursements, and other uses of the Superfund annually to
                       ensure that it is being properly administered. During this semiannual
                       period, we conducted an audit to determine whether NIST had properly
                       managed the financial aspects of its one Superfund agreement entered into
                       with EPA during FY 1997.

                            We determined that NIST had accurately accumulated, documented,
                       and charged the Superfund for reimbursable costs under the agreement;
                       funds had been received in advance for all work performed; the agency
                       was in compliance with the relevant financial provisions of the legislation
                       that created the Superfund and the terms and conditions of the interagency
                       agreement; and controls over Superfund activities were adequate. As a
                       result, we made no recommendations. (Economic Development Audits
                       Division: EDD-10268-8-0001)

                       Audit Reports Unresolved for Over Six Months
                           As of March 31, 1998, there were eight financial assistance audit
                       reports with recommendations unresolved for more than six months.

                           Seven of the eight reports are on joint venture ATP awards, in which
                       we questioned a total of $9.8 million in claimed costs generally involving
                       transactions by software development companies that provided licenses,
                       software maintenance and support, or other items from a commercial
                       product line, for use on the projects (DEN-9752-7-0001, DEN-9760-7-
                       0001, DEN-9767-7-0001, DEN-9774-7-0001, DEN-9776-7-0001, DEN-
                       9779-7-0001, and DEN-9827-7-0001—see September 1997 issue,
                       page 50).




64                    Commerce IG Semiannual Report                                    March 1998
                                                                         Technology Administration


    The main issue concerns federal cost reimbursement rules that do not
permit financial assistance award recipients to be reimbursed for previously
invested development costs, corporate interest expenses, or profit—all of
which can be significant ingredients of software commercial prices. We
worked closely with NIST grant and program officials to develop a new
rule, effective December 9, 1997, that addresses prospectively the
valuation of transfers of goods and services, including computer software,
between separately owned joint venture members. On March 27, NIST
submitted audit resolution proposals for the seven audits, and we are in the
process of evaluating the proposals.

     One financial assistance interim audit of a Texas joint venture
participant questioned a $125,655 “cost of money” cost because it was not
specifically identified in a cost proposal relating to the award under which
this cost was claimed (DEN-9768-7-0001). NIST presented its views in an
audit resolution proposal received at the close of this reporting period. We
are reviewing the proposal.




March 1998                               Commerce IG Semiannual Report                          65
                                            Departmental Management

                                             Financial Statements Audits
                   CFO and
                Asst. Secretary
                                                  The OIG is responsible for the financial statements audit of the
              for Administration
                                             Department of Commerce in accordance with the CFO Act, as expanded
        Budget,            Security and      by the Government Management Reform Act. During this semiannual
      Management           Administrative    period, the Department prepared its second consolidated financial
     and Information         Services
                                             statements, on which we disclaimed an opinion (see page 68).
     Exec. Budgeting
      and Assistance
                             Financial            In addition to reporting on the Department’s consolidated financial
                            Management
       Management                            statements, we issued an individual audit report for each bureau.
                                             Unqualified opinions were received by BEA/ESA, MBDA, NIST, NTIA,
     Systems and              Human          PTO, TA, the Department’s Working Capital Fund, and the Department’s
       Telecom.              Resources       Salaries and Expenses Fund. BXA, Census, and NTIS received unqualified
     Management             Management
                                             opinions on their balance sheets with disclaimers on their income
                                             statements. EDA and NOAA received qualified opinions on their balance
     Acquisition                Civil        sheets with disclaimers on their income statements. Disclaimers of opinion
     Management                Rights
                                             were received by the Department’s Franchise Fund and ITA.

                                                 The Department has strengthened its financial management over the
                                             prior year as indicated by six bureaus receiving improved audit opinions, as
                                             shown in the chart on the following page. In addition, the overall number
                                             of audit findings has decreased over the past several years. Despite this
                                             improvement, we remain concerned with the Department’s ability to reach
                                             an unqualified opinion on its consolidated statements, given the upcoming
                                             reporting requirements included in GPRA and OMB Bulletin 97-01.

                                                 We reviewed the FY 1997 financial statement overviews prepared for
                                             the Department and its individual bureaus, and offered suggestions for
                                             improvement, many of which were incorporated. Our reviews found that
                                             the overviews generally did not provide sufficient performance and
                                             financial measures to provide clear descriptions of program and financial
                                             results. While some bureaus have made progress in developing perform-
                                             ance measures and presenting performance results, further improvements
                                             are needed. Areas identified for improvement include (1) expanded usage
                                             of outcome and cost-effectiveness measures, (2) improved discussion of
                                             financial performance and results, (3) closer linkage to strategic goals and
                                             objectives, and (4) additional discussion of management plans to address
                                             identified deficiencies. Bureaus could also improve their presentation of
                                             performance results to facilitate trend analyses and assessments of whether
                                             target levels of performance have been achieved.

                                                 We will work with the Department and the bureaus to ensure that their
                                             corrective action plans address their internal control weaknesses. In
                                             addition, we will continue to assess the Department’s and the bureaus’
                                             progress in addressing the new reporting requirements.

66                                          Commerce IG Semiannual Report                                   March 1998
                                                                                  Departmental Management


        Entity       FY 1992            FY 1993       FY 1994           FY 1995           FY 1996               FY 1997
  Department                                                                        Disclaimer             Disclaimer

  BEA              Survey          Balance Sheet    Balance Sheet   Unqualified     Unqualified            Unqualified
                                   Disclaimer       Unqualified
  BXA                                               Survey          Disclaimer      Disclaimer             Balance Sheet
                                                                                                           Unqualified; Income
                                                                                                           Statement Disclaimer
  Census           Survey          Limited Scope    Disclaimer      Balance Sheet   Balance Sheet          Balance Sheet
                                                                    Qualified       Qualified; Income      Unqualified; Income
                                                                                    Statement Disclaimer   Statement Disclaimer
  EDA              Limited Scope   Balance Sheet    Disclaimer      Disclaimer      Disclaimer             Balance Sheet
                                   Disclaimer                                                              Qualified; Income
                                                                                                           Statement Disclaimer
  ESA              Survey          Balance Sheet    Balance Sheet   Unqualified     Unqualified            Unqualified
                                   Disclaimer       Unqualified
  Franchise Fund                                                                                           Disclaimer

  Gifts &                          Disclaimer                       *
  Bequests
  ITA              Survey          Limited Scope    Disclaimer      Disclaimer      Disclaimer             Disclaimer

  MBDA                                              Survey          Balance Sheet   Unqualified            Unqualified
                                                                    Unqualified
  NIST             Limited Scope   Balance Sheet    Unqualified     Unqualified     Unqualified            Unqualified
                                   Unqualified
  NOAA             Survey          **               Disclaimer      Disclaimer      Disclaimer             Balance Sheet
                                                                                                           Qualified; Income
                                                                                                           Statement Disclaimer
  NTIA             Survey          Balance Sheet    Unqualified     Unqualified     Unqualified            Unqualified
                                   Unqualified
  NTIS             Unqualified     Unqualified      Unqualified     Unqualified     Balance Sheet          Balance Sheet
                                                                                    Qualified; Income      Unqualified; Income
                                                                                    Statement Disclaimer   Statement Disclaimer
  PTO              Survey          Balance Sheet    Unqualified     Unqualified     Unqualified            Unqualified
                                   Unqualified
  S&E                                                               Disclaimer      Balance Sheet          Unqualified
                                                                                    Qualified; Income
                                                                                    Statement Disclaimer
  TA                                                                Balance Sheet   Unqualified            Unqualified
                                                                    Unqualified
  WCF              Survey          Balance Sheet    Balance Sheet   Unqualified     Unqualified            Unqualified
                                   Disclaimer       Unqualified
  Note: Definitions of the types of opinions appear on page 94.
  * An audit could not be performed.
  ** In FY 1993, we performed balance sheet audits of two NOAA entities — the Coastal Zone Management
     Revolving Fund and the Fishing Vessel Obligation Guarantee Program.




March 1998                                      Commerce IG Semiannual Report                                                     67
Departmental Management


                     Audit of the Department’s FY 1997
                     Consolidated Financial Statements
                         The OIG issued a disclaimer of opinion in its audit of the Commerce
                     FY 1997 consolidated financial statements because of management’s
                     inability to support certain account balances and deficiencies noted in the
                     Department’s internal control environment. Our internal control review of
                     the Department disclosed 10 reportable conditions, of which 7 were con-
                     sidered material weaknesses. The conditions dealt with the need for the
                     Department to improve its financial management, systems, reconciliations,
                     preparation of the consolidated financial statements, and procedures for
                     the overview section of the statements. Improvements are also needed in
                     controls over property; inventories; cash receipts and accounts receivable;
                     obligations/undelivered orders, accounts payable, and expenses; and the
                     identification of potential contingent liabilities and unasserted claims.

                         Implementation of Statement of Federal Financial Accounting
                     Standards No. 5 and Interpretation of Federal Financial Accounting
                     Standards No. 2 required the Department and its bureaus, beginning in
                     FY 1997, to report all contingent liabilities associated with their operations,
                     including transactions that are chargeable to the Treasury Department’s
                     Judgment Fund. However, departmental and bureau management were not
                     sufficiently prepared for implementation of this standard. A significant,
                     coordinated effort among the Office of General Counsel, the Office of
                     Financial Policy and Assistance, and the OIG was initiated to address the
                     challenge of meeting this new reporting requirement. This issue was a
                     major factor contributing to the Department’s inability to meet OMB’s
                     March 1, 1998, deadline for the issuance of audited financial statements.

                          In performing tests of compliance with selected provisions of
                     applicable laws and regulations that may materially affect the consolidated
                     statements, we noted several material instances of noncompliance.
                     Specifically, we found that the Department was not in compliance with the
                     Federal Financial Management Improvement Act of 1996, in part because
                     it does not meet the requirements for a single, integrated financial system.
                     Moreover, it is not in compliance with the Information Technology
                     Management Reform Act of 1995, in part because a permanent Chief
                     Information Officer has not been designated. In addition, similar tests of
                     the individual bureaus disclosed material instances of noncompliance at
                     ITA (see page 31) and NOAA (see page 38).

                         The Department concurred with our findings and our recommenda-
                     tions for corrective action and will prepare an audit action plan to address
                     those recommendations.


68                  Commerce IG Semiannual Report                                     March 1998
                                                                        Departmental Management


    To achieve an unqualified opinion in future years, the Department
must meet the requirements set forth in OMB Bulletin 97-01. The bulletin
poses tremendous challenges for the Department, particularly in its
requirement that costs be reported in a new way—by suborganizations and
programs, which are to be based on the missions and outputs described in
the Department’s strategic and annual plans and its budget structures.
(Financial Statements Audits Division: FSD-9753-8-0001)

Audit of the WCF and S&E Fund
FY 1997 Financial Statements
     The OIG performed audits of the General Administration’s Working
Capital Fund (WCF) and Salaries and Expenses Fund (S&E) financial
statements for the year ended September 30, 1997. We issued unqualified
opinions on the financial statements for both funds. The statements were
prepared by NIST’s Office of Comptroller, which provides accounting
services for the funds. Both funds are managed by the Department’s
Office of Executive Budgeting under the same internal control structure
and procedures for compliance. Thus, the findings in our reports on
internal control structure and on compliance with laws and regulations
apply to both funds, unless otherwise specified.

     Although progress continues to be made to improve the quality,
usefulness, and timeliness of the funds’ financial and performance
reporting, our review of the internal control structure identified seven
reportable conditions related to (1) controls over property (material
weakness); (2) controls over inventory for the WCF; (3) the basis for cost
allocation rates and supporting documentation for the WCF; (4) controls
surrounding obligations/undelivered orders, accounts payable, and
expenses; (5) the analysis, monitoring, and review of financial information;
(6) procedures for the overview section of the financial statements; and
(7) controls over the Financial Accounting and Reporting System at the
Office of Computer Services (OCS). Five of the seven reportable
conditions, including the material weakness, were repeat conditions from
prior audits. We also identified one material instance of noncompliance
with laws and regulations, in that the funds were not operating in
conformance with the Federal Financial Management Improvement Act.

    In addition, we were concerned that the funds’ overviews to the
financial statements were lacking sufficient financial performance measures
to comply with GPRA requirements. For example, the few measures that
were included were not presented in a manner that adequately reflects the
funds’ successes or challenges. (Financial Statements Audits Division:
FSD-9754-8-0001)


March 1998                              Commerce IG Semiannual Report                        69
Departmental Management


                     Audit of the Franchise Fund’s
                     FY 1997 Financial Statements
                          The Franchise Fund was established under the Government
                     Management Reform Act of 1994 as a pilot program to provide common
                     administrative services. The program’s goal is to promote entrepreneurial
                     business activities in common administrative services throughout the
                     federal government, leading to a more competitive environment, which
                     should in turn result in lower cost, higher quality, and more timely services.
                     The services are to be provided on a full-cost-recovery basis, with no
                     start-up appropriations.

                          In May 1996, OMB approved the Department as one of the six
                     Franchise Fund pilot programs. The pilot involves projects in two
                     Commerce entities—NOAA’s Administrative Support Centers and the
                     Office of the Secretary’s Office of Computer Services. GMRA requires
                     that the pilot program be audited; our audit of the FY 1997 statements was
                     the first audit of the Fund. We expressed a disclaimer of opinion on the
                     financial statements as of September 30, 1997, and for the year then
                     ended. As explained in the report on internal control structure, significant
                     internal control matters need to be addressed by the Franchise Fund’s
                     management to achieve the financial management objectives of the
                     CFO Act, as amended by GMRA.

                         Our internal controls review of the Fund for the FY 1997 audit
                     disclosed six reportable conditions, of which four are considered material
                     weaknesses. The material weaknesses include the lack of an effective
                     management structure to establish proper financial management control
                     over Fund operations; inadequate controls over obligations/undelivered
                     orders, accounts payable, and expenses; inadequate controls over cash
                     receipts, accounts receivables, and revenues; and inadequate controls over
                     capital assets. The remaining two weaknesses include the need to improve
                     controls over automated data processing security and to strengthen the
                     overview section of the financial statements.

                         We also found two material instances of noncompliance with
                     applicable laws and regulations: (1) Certain aspects of OCS’s procurement
                     process were under review by the OIG and, at the time, we were unable to
                     assess the impact of that issue on the financial statements; and (2) the
                     Fund was not in substantial compliance with the Federal Financial
                     Management Improvement Act of 1996, in that the Department’s financial
                     management systems are inadequate.




70                  Commerce IG Semiannual Report                                    March 1998
                                                                        Departmental Management


     We made recommendations to address the above deficiencies.
Management agreed with our findings and recommendations and expressed
its intent to take the necessary actions to obtain an unqualified opinion.
(Financial Statements Audit Division: FSD-10240-8-0001)

Office of Computer Services Needs
Stronger Operational Controls
    The Department’s Office of Computer Services, located in Springfield,
Virginia, provides data processing support for several financial application
systems, including the Financial Accounting and Reporting System. Various
Commerce entities utilize this system to produce their fiscal year-end
financial statements.

    As part of the OIG’s FY 1997 consolidated audit of the Department,
we performed a review of OCS operations to evaluate the effectiveness of
general controls surrounding the Financial Accounting and Reporting
System and Commerce financial data processing. The review focused on
evaluating the adequacy and effectiveness of controls for mainframe
system logical and physical security; computer center management and
operations; software configuration management; and backup, recovery,
and contingency planning.

    We found several control issues that, if not resolved, could adversely
affect the Department’s ability to record and report financial data
consistent with management’s assertions. We identified controls needing
improvement in OCS’s entity-wide security program, access to the system,
segregation of duties, system software, and service continuity.

    We made numerous recommendations to OCS management to
improve operations. Management concurred with our findings and
recommendations and has provided a draft audit action plan detailing its
planned corrective actions. (Financial Statements Audits Division:
FSD-10021-8-0001)

Review of the Department’s
Discretionary Funding Programs
    The Chairman of the Senate Committee on Commerce, Science, and
Transportation requested that the OIG conduct a review of all of the
Department’s funding programs to assess how discretionary funding
decisions are made. Specifically, he asked that we review and report on




March 1998                              Commerce IG Semiannual Report                        71
Departmental Management


                     what criteria have been developed to guide Department officials in making
                     such decisions and the extent to which the criteria are being applied. The
                     Chairman was particularly interested in learning of discretionary funding
                     programs that either have no formal merit-based criteria or have criteria
                     that are not being properly applied.

                          Technically, all Commerce financial assistance programs are
                     discretionary, rather than entitlement, programs. Six Commerce agencies—
                     EDA, ITA, MBDA, NIST, NOAA, and NTIA—administer 71 categorical
                     grant programs providing about $1 billion a year in financial assistance to
                     state and local governments, nonprofit and for-profit organizations, and
                     individuals. Authorizing program legislation and agency policies,
                     regulations, and solicitation, review, and selection procedures provide for
                     varying degrees of discretion in making awards under the programs.

                          The OIG plans to meet the Chairman’s request by systematically
                     reviewing and reporting on all 71 grant programs. The review methodology
                     will initially entail identifying (1) all programs for which competition or
                     merit-based selection is significantly limited by the authorizing legislation,
                     and (2) all earmarked projects, in order to determine their significance and
                     impact in limiting competition or merit-based selection for program funds.

                          For each program for which the authorizing legislation or earmarks do
                     not significantly limit competition or merit-based selection, we will evaluate
                     agency procedures for soliciting, reviewing, and selecting proposals to
                     determine if they comply with legislative intent and criteria, and evaluate
                     whether they are designed to result in competitive or merit-based
                     selections. We will issue a survey report during the next semiannual period
                     on the results of this work.

                          For the programs that have solicitation, review and selection
                     procedures which, if followed, should result in competitive or merit-based
                     selections, we will review a representative sample of the solicitation,
                     review, and selection practices for FY 1997 awards to determine if the
                     procedures were followed. As for the programs that do not have compe-
                     titive or merit-based procedures or have inadequate procedures, we will
                     review a representative sample of the FY 1997 awards to determine how
                     the funded proposals were selected. We will issue individual reports on the
                     various agency programs, followed by a capping report summarizing the
                     results of our overall review. (Office of Audits)




72                  Commerce IG Semiannual Report                                    March 1998
                                                                         Departmental Management


OIG Completed Project on Procedures for
Prescreening Financial Assistance Recipients
    As discussed in our previous report (see September 1997 issue,
page 57), the Commerce OIG was instrumental in completing a survey
report highlighting the procedures used by Offices of Inspector General
and their respective agencies to prescreen federal financial assistance
recipients. The survey report was an initiative of the President’s Council
on Integrity and Efficiency’s Inspection and Evaluation Committee. The
objective of the report was to identify the best practices used by individual
organizations, so that other OIGs and agencies will have an opportunity to
adopt such practices in their review procedures for federal assistance
awards.

    We were responsible for conducting a survey to identify successful
techniques used by OIGs and their respective agency grant and loan
offices to identify and screen out potentially problematic recipients of
federal grants, loans, loan guarantees, or cooperative agreements before
they receive federal funding.

    Although most OIGs that participated in the survey do not have an
active prescreening process, they expressed strong support for greater
coordination in identifying problem recipients of federal financial assist-
ance. We recommended that the President’s Council conduct a review to
determine the feasibility of the IG community developing an interagency
database to facilitate the exchange of information on problem grantees and
loan recipients. (Office of Inspections and Program Evaluations)

Preaward Financial Assistance Screening
    We continue to work with the Office of Executive Assistance
Management, NOAA and NIST grant offices, and EDA program offices to
screen all of the Department’s grants, cooperative agreements, and loan
guarantees before award. Our screening (1) provides information on
whether the applicant has unresolved audit findings and recommendations
on earlier awards, and (2) determines whether a name check or investi-
gation has revealed any negative history on individuals or organizations
connected with a proposed award.

     During this period, we screened 707 proposed awards. On the basis of
information we provided, the Department delayed the awards, or desig-
nated certain recipients as “high risk” and required that the disbursement
of federal funds be on a cost reimbursement basis. (Office of Audits)



March 1998                               Commerce IG Semiannual Report                        73
Departmental Management


                                          Preaward Screening Results
                                      Results                      Number           Amount

                       Awards delayed                                  4           $14,352,284

                       Cost reimbursement basis                        3              1,311,500



                     Indirect Cost Reviews
                          OMB has established a policy whereby a single federal agency is
                     responsible for the review, negotiation, and approval of indirect cost rates
                     for federal programs. Normally, the federal agency providing the most
                     direct funding is the cognizant agency. OMB has designated Commerce as
                     the cognizant agency for 280 economic development districts. In turn, the
                     Department authorized the OIG to negotiate indirect cost rates and review
                     cost allocation plans for each of its agencies. The OIG approves the
                     methodology and principles used in pooling indirect costs and establishing
                     an appropriate base for distributing those costs to ensure that each federal,
                     state, and local program bears its fair share.

                         During this period, the OIG negotiated 18 indirect cost rate agreements
                     with nonprofit organizations and governmental agencies, and reviewed and
                     approved 21 cost allocation plans. We also provided technical assistance to
                     recipients of Commerce awards regarding the use of rates established by
                     other federal agencies and their applicability to our awards. Further, we
                     have worked closely with first-time for-profit recipients of Commerce
                     awards to establish indirect cost proposals that are acceptable for OIG
                     review. (Atlanta Regional Office of Audits)




74                  Commerce IG Semiannual Report                                    March 1998
                                                                        Departmental Management


Nonfederal Audit Activities
    In addition to OIG-performed audits, the Department’s financial
assistance programs are audited by state and local government auditors and
by independent public accountants. OMB Circulars A-128, Audits of State
and Local Governments, and A-133, Audits of Institutions of Higher
Education and Other Non-Profit Institutions, set forth the audit
requirements for most of these entities. Entities that are for-profit
organizations and receive ATP funds from NIST are audited in accordance
with Government Auditing Standards and NIST Program-Specific Audit
Guidelines for ATP Cooperative Agreements, issued by the Department.

    Circular A-133 was revised in June 1997. The revised circular, Audits
of States, Local Governments, and Non-Profit Organizations, rescinds the
previous Circular A-128 and incorporates that circular’s requirements and
previous A-133 requirements into one document. It also raises the
threshold for requiring an audit, and directs that entities submit reports
directly to a federal clearinghouse instead of the Department. The revised
Circular A-133 is effective for fiscal years beginning after June 30, 1996.

     During this semiannual period, we received a total of 278 audit reports
prepared by nonfederal auditors. All reports received during this period
were prepared under the previous Circular A-128 and Circular A-133
requirements. We also had 84 unprocessed reports from the last semian-
nual period. For 177 of these reports, the Department is responsible for
monitoring compliance with the two OMB circulars and NIST’s require-
ments applicable to its financial assistance. The other 185 reports are from
entities for which other federal agencies have oversight responsibility. We
examined 264 reports during this period to determine whether they con-
tained audit findings on any Department programs.


                   Report Category                           Number

    Pending (October 1, 1997)                                          84

    Received                                                          278

    Examined                                                          264

    Pending (March 31, 1998)                                           98




March 1998                              Commerce IG Semiannual Report                        75
Departmental Management


                         The following table shows a breakdown by bureau of the $168 million
                     in Commerce funds audited.


                                  Bureau                                Funds

                          EDA                                                      $72,248,781

                          ITA                                                          607,153

                          MBDA                                                         765,053

                          NOAA                                                      34,320,137

                          NTIA                                                       4,625,515

                          TA                                                         8,421,336

                           NIST                                                     46,913,574

                                           Total                                 $167,901,549



                          We identified a total of $1,333,820 in questioned costs. In most
                     reports, the Department’s programs were considered non-major, resulting
                     in limited transaction and compliance testing against laws, regulations, and
                     grant terms and conditions. The 18 reports with Commerce findings are
                     listed in Appendix B-1. (Atlanta Regional Office of Audits)




76                  Commerce IG Semiannual Report                                    March 1998
                       Reporting Requirements


                                                       INDEX
           The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
           semiannual reports. The requirements are listed below and indexed to the applicable pages.

       Section                                           Topic                                      Page
 4(a)(2)                    Review of Legislation and Regulations                                          78

 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                              17-76

 5(a)(2)                    Significant Recommendations for Corrective Action                           17-76

 5(a)(3)                    Prior Significant Recommendations Unimplemented                                78

 5(a)(4)                    Matters Referred to Prosecutive Authorities                                 17-76

 5(a)(5) and 6(b)(2)        Information or Assistance Refused                                              79

 5(a)(6)                    Listing of Audit Reports                                                    87-93

 5(a)(7)                    Summary of Significant Reports                                              17-76

 5(a)(8)                    Audit Reports—Questioned Costs                                              83, 86

 5(a)(9)                    Audit Reports—Funds to Be Put to Better Use                                 84, 85

 5(a)(10)                   Prior Audit Reports Unresolved                                              15, 79

 5(a)(11)                   Significant Revised Management Decisions                                    15, 80

 5(a)(12)                   Significant Management Decisions with Which the OIG Disagreed                  80

 The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
 to report on instances and reasons when an agency has not met the dates of its remediation plan. Our
 discussion of the act appears on page 9.




March 1998                              Commerce IG Semiannual Report                                        77
Reporting Requirements


                          Section 4(a)(2): Review of Legislation
                          and Regulations
                              This section requires the Inspector General of each agency to review
                          existing and proposed legislation and regulations relating to that
                          agency’s programs and operations. Based on that review, the Inspector
                          General is required to make recommendations in the semiannual report
                          concerning the impact of such legislation or regulations on the economy
                          and efficiency in the administration of programs and operations
                          administered or financed by the agency or on the prevention and
                          detection of fraud and abuse in those programs and operations. Our
                          recommendations on legislative and regulatory initiatives affecting
                          Commerce programs are discussed throughout the report.

                          Section 5(a)(3): Prior Significant
                          Recommendations Unimplemented
                              This section requires an identification of each significant
                          recommendation described in previous semiannual reports on which
                          corrective action has not been completed. Section 5(b) requires that the
                          Secretary transmit to the Congress statistical tables for audit reports for
                          which no final action has been taken, plus a statement that includes an
                          explanation of the reasons final action has not been taken on each such
                          audit report, except when the management decision was made within the
                          preceding year.

                              Prior Inspector General semiannual reports have explained that to
                          include a list of all significant unimplemented recommendations in this
                          report would be duplicative, costly, unwieldy, and of limited value to the
                          Congress. Any list would have meaning only if explanations detailed
                          whether adequate progress is being made to implement each agreed-upon
                          corrective action. Also, as this semiannual report is being prepared,
                          management is in the process of updating the Department’s Audit
                          Tracking System as of March 31, 1998, based on semiannual status
                          reports due from the bureaus in mid-April. An accurate database is
                          therefore not available to the OIG for reference here. However,
                          additional information on the status of any audit recommendations may
                          be obtained through the OIG’s Office of Audits.




78                       Commerce IG Semiannual Report                                   March 1998
                                                                            Reporting Requirements


Sections 5(a)(5) and 6(b)(2): Information or
Assistance Refused
    These sections require a summary of each report to the Secretary
when access, information, or assistance has been unreasonably refused or
not provided. There were no such instances during this semiannual
period, and no reports to the Secretary.

Section 5(a)(10): Prior Audit Reports Unresolved
    This section requires a summary of each audit report issued before
the commencement of the reporting period for which no management
decision has been made by the end of the reporting period (including the
date and title of each such report), an explanation of the reasons such
management decision has not been made, and a statement concerning the
desired timetable for achieving a management decision on each such
report.

    As of March 31, 1998, 10 financial assistance audit and 3 preaward
contract audits were in this category, as discussed below.

Financial Assistance Audits

    The 10 unresolved audits relate to financial assistance awards made
by EDA (1), NOAA (1), and NIST (8). Audit resolution proposals have
been submitted in response to all the final audit reports; however, OIG
and the bureaus were not able to resolve the reports on a timely basis.
Additional details are presented on pages 22, 49, and 64.

Preaward Contract Audits

    The Department’s Audit Tracking System recorded three preaward
contract audits unresolved in excess of six months. The audits, based on
DCAA reviews of contract proposals, are resolved when a contracting
officer takes final action on the pending procurement, such as awarding a
contract or issuing a contract modification.

    The unresolved preaward contract audits to be reported are listed
below.

!       ARA-08350-6-0082, August 6, 1996
!       OCA-08350-7-0025, June 13, 1997
!       OCA-08350-7-0030, August 14, 1997



March 1998                             Commerce IG Semiannual Report                       79
Reporting Requirements


                          Section 5(a)(11): Significant Revised
                          Management Decisions
                              This section requires a description and explanation of the reasons for
                          any significant revised management decision made during the reporting
                          period. Department Administrative Order 213-5, “Audit Resolution and
                          Follow-up,” provides procedures for revision of a management decision.
                          For performance audits, the OIG must be consulted and must approve, in
                          advance, any modification to an audit action plan. For financial
                          assistance audits, the OIG must concur with any decision that would
                          change the audit resolution proposal in response to an appeal by the
                          recipient.

                              During the reporting period, five modifications were submitted to the
                          OIG for review. None of the modifications involved issues with current
                          significance, and the OIG concurred with the proposed adjustments.

                              The decisions issued on the four appeals of audit-related debts were
                          finalized with the full participation and concurrence of the OIG.

                          Section 5(a)(12): Significant Management
                          Decisions with Which the OIG Disagreed
                              This section requires information concerning any significant
                          manage-ment decision with which the Inspector General is in
                          disagreement.

                              Department Administrative Order 213-5 provides procedures for the
                          elevation of unresolved audit recommendations to higher levels of
                          Department and OIG management, including an Audit Resolution
                          Council. During this period, one audit issue was referred to the Deputy
                          Secretary (see page 37).




80                       Commerce IG Semiannual Report                                 March 1998
                             Statistical Highlights

                                                     Audit
                                            Statistical Highlights
             Questioned costs this period ............................................                       $2,600,928

             Value of audit recommendations made
             this period that funds be put to better use .........................                           $8,571,588

             Value of audit recommendations agreed
             to this period by management ..........................................                         $2,348,787




                                                Investigative
                                            Statistical Highlights
             Arrests .................................................................................................. 1
             Indictments and informations ................................................................ 5
             Convictions ........................................................................................... 1
             Personnel actions* ...............................................................................24
             Administrative actions** ........................................................................10
             Fines, restitutions, judgments, and other civil
             and administrative recoveries ..................................................$3,152,245
             ** Includes removals, suspensions, reprimands, demotions, reassignments, and resignations
             ** or retirements in lieu of adverse action.
             ** Includes actions to recover funds, new procedures, and policy changes that result from
             ** investigations.




                                          Allegations Processed
                                           by OIG Investigators
                                              Accepted for investigation...................................... 28
                                              Referred to operating units .................................... 37
                                              Evaluated but not accepted for
                                              investigation or referral .......................................... 35
                                              Total ..................................................................... 100
                                              In addition, numerous other allegations and complaints were
                                              forwarded to the appropriate federal and nonfederal investigative
                                              agencies.
                                              In addition
                                                       OIG HOTLINE
                            Telephone:              (202) 482-2495 or (800) 424-5197
                            Internet E-Mail:        oighotline@doc.gov




March 1998                               Commerce IG Semiannual Report                                                          81
                                             Tables and Appendixes


     TABLES                                                                                                          PAGE

     1. Audits with Questioned Costs                                                                                    83

     2. Audits with Recommendations That Funds Be Put to Better Use                                                     84

     3. Preaward Contract Audits with Recommendations That Funds Be Put to Better Use                                   85

     4. Postaward Contract Audits with Questioned Costs                                                                 86


     APPENDIXES
     A. Office of Inspector General Reports                                                                             87

         A-1. Performance Audits                                                                                        87

         A-2. Inspections                                                                                               88

         A-3. Financial Statements Audits                                                                               89

         A-4. Financial Assistance Audits                                                                               90

     B. Processed Reports                                                                                               92

         B-1. Processed Financial Assistance Audits                                                                     93


     DEFINITIONS
     The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
     provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
     expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation;
     or (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

     The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
     Questioned costs include unsupported costs.

     The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could
     be used more efficiently if Commerce management took action to implement and complete the recommendation,
     including (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest
     subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended
     improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in
     preaward reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

     The term management decision refers to management’s evaluation of the findings and recommendations included in
     the audit report and the issuance of a final decision by management concerning its response.




82                                            Commerce IG Semiannual Report                                        March 1998
                                                                                   Tables and Appendices



  Table 1: Audits with Questioned Costs
                                                                                        Questioned         Unsupported
  Report Category                                                       Number            Costs               Costs

  A. Reports for which no management decision had been
     made by the commencement of the reporting period                       42           $10,002,583            $1,606,366


  B. Reports issued during the reporting period                             27              2,600,928              853,910

  C. Total reports (A+B) requiring a management decision
  C. during the reporting period                                            69            12,603,511             2,460,276

  C. Reports for which a management decision was made
  C. during the reporting period                                            34              3,079,808              883,699


      ii. Value of disallowed costs                                                         1,591,589              467,549


      ii. Value of costs not disallowed                                                     1,488,219              416,150

  D. Reports for which no management decision had been
  D. made by the end of the reporting period                                35            $9,523,703            $1,576,577

     Notes and Explanations:
     In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.
     Five audit reports included in this table are also included in the reports with recommendations that funds be
     put to better use (see Table 2). However, the dollar amounts do not overlap.
     No postaward contract audits are included in this table; instead, any such audits are listed in Table 4.




March 1998                                Commerce IG Semiannual Report                                                    83
Tables and Appendices



     Table 2: Audits with Recommendations
     Table 2: That Funds Be Put to Better Use

     Report Category                                                                         Number                 Value
     A. Reports for which no management decision had been made by the
     A. commencement of the reporting period                                                      6                $46,697,819


     B. Reports issued during the reporting period                                                5                  8,571,588

     C. Total reports (A+B) requiring a management decision during the
     B. reporting period                                                                         11                 55,269,407

     C. Reports for which a management decision was made during the
     C. reporting period                                                                          6                 46,697,819


        ii. Value of recommendations agreed to by management                                                          757,198


        ii. Value of recommendations not agreed to by management                                                    45,940,621

     D. Reports for which no management decision had been made by the
     D. end of the reporting period                                                               5                 $8,571,588

        Notes and Explanations:
        In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
        than the original recommendations.
        Five audit reports included in this table are also included in the reports with recommendations that funds be
        put to better use (see Table 1). However, the dollar amounts do not overlap.
        No postaward contract audits are included in this table; instead, any such audits are listed in Table 3.




84                                           Commerce IG Semiannual Report                                           March 1998
                                                                                    Tables and Appendices



  Table 3: Preaward Contract Audits with Recommendations
  Table 3: That Funds Be Put to Better Use

  Report Category                                                                          Number                Value
  A. Reports for which no management decision had been made by the
  A. commencement of the reporting period                                                       4                $1,062,459


  B. Reports issued during the reporting period                                                —                           —

  C. Total reports (A+B) requiring a management decision during the
  B. reporting period                                                                           4                 1,062,459

  C. Reports for which a management decision was made during the
  C. reporting period                                                                           1                   525,119


      ii. Value of recommendations agreed to by management                                                                 —


      ii. Value of recommendations not agreed to by management                                                             —


     iii. Value of reports on proposals that were not awarded contract                                              525,119

  D. Reports for which no management decision had been made by the
  D. end of the reporting period                                                                3                  $537,340

     Notes and Explanations:
     Preaward audits of contracts include results of audits performed for the OIG by other agencies.
     When there are multiple proposals for the same contract, we report only the proposal with the lowest dollar value
     for funds to be put to better use; however, in Category C, lines i-ii, we report the value of the awarded contract.
     In Category C, lines i-iii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.




March 1998                                Commerce IG Semiannual Report                                                        85
Tables and Appendices



     Table 4: Postaward Contract Audits
     Table 4: with Questioned Costs
                                                                                           Questioned         Unsupported
     Report Category                                                       Number            Costs               Costs
     A. Reports for which no management decision had been
        made by the commencement of the reporting period                       —                        —                     —


     B. Reports issued during the reporting period                             —                        —                     —

     C. Total reports (A+B) requiring a management decision
     C. during the reporting period                                            —                        —                     —

     C. Reports for which a management decision was made
     C. during the reporting period                                            —                        —                     —


        ii. Value of disallowed costs                                                                   —                     —


        ii. Value of costs not disallowed                                                               —                     —

     D. Reports for which no management decision had been
     D. made by the end of the reporting period                                —                        —                     —

        Notes and Explanations:
        In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
        than the original recommendations.




86                                           Commerce IG Semiannual Report                                          March 1998
                                                                           Tables and Appendices



  Appendix A. Office of Inspector General Reports
                                       Type                                            Number     Appendix
  Performance Audits                                                                      6          A-1

  Inspections                                                                             6          A-2

  Financial Statements Audits                                                            16          A-3

  Financial Assistance Audits                                                            24          A-4

  Total                                                                                  52




  Appendix A-1. Performance Audits

                                                                                               Funds to Be
                                                                                               Put to Better
          Agency                         Subject                        Number            Date      Use
  Economics and         2000 Decennial Census: Address-Building     ESD-9608-8-0001       03/98            __
  Statistics            Program May Become More Complex,
  Administration        Costly, and Counterproductive

                        Atlanta Bankcard Purchases Need Improved    ATL-10316-8-0001      03/98            —
                        Internal Controls

  International Trade   Trade Events: Improvements Needed in        IAD-9714-8-0001       03/98            —
  Administration        Planning and Management

  National Oceanic      NMFS Laboratory Structure Should Be         STL-8982-8-0001       11/97    $6,028,000
  and Atmospheric       Streamlined
  Administration
                        NOAA/EPA Interagency Agreements for         STL-10140-8-0001      02/98            —
                        Support of Ongoing Superfund Activities -
                        FY 1995 and FY 1996

  Technology            FY 1997 Superfund Charges to the            EDD-10268-8-0001      02/98            —
  Administration        Environmental Protection Agency




March 1998                              Commerce IG Semiannual Report                                          87
Tables and Appendices



     Appendix A-2. Inspections
                                                                                   Funds to Be
                                                                                   Put to Better
        Agency                         Subject                       Number   Date      Use
 Economics and        Headquarters Information Processing        OSE-10034    11/97           —
 Statistics           Systems for the 2000 Decennial Census
 Administration       Require Technical and Management Plans
                      and Procedures

 Minority Business    Use of Cooperative Agreements Will         IPE-10309    03/98           —
 Development Agency   Improve Management and Oversight of the
                      Minority Business Opportunity Committee
                      Program

 National Oceanic     Coastal Zone Management and National       IPE-9044     12/97           —
 and Atmospheric      Estuarine Research Reserve System
 Administration       Programs Require Management Attention to
                      Increase Effectiveness

                      NWS’s Verification System for Severe and   IPE-9255     01/98           —
                      Hazardous Weather Forecasting Needs
                      Modernization

 Patent and           Inadequate Contractor Transition Risks     OSE-10084    12/97           —
 Trademark Office     Increased System Cost and Delays

                      PTO Needs to Refine Its Space              IPE-9724     03/98           —
                      Consolidation Planning




88                                    Commerce IG Semiannual Report                    March 1998
                                                                           Tables and Appendices



  Appendix A-3. Financial Statements Audits
                                                                                            Funds to Be
                                                                                            Put to Better
        Agency                           Subject                        Number         Date      Use
  Bureau of Export      Financial Statements for FY 1997            FSC-9859-8-0001    03/98           —
  Administration

  Economic              Financial Statements for FY 1997            FSC-9861-8-0001    03/98
  Development                                                                                          —
  Administration

  Economics and         BEA’s and ESA’s Consolidated Financial      FSC-10113-8-0001   03/98           —
  Statistics            Statements for FY 1997
  Administration
                        Census’ Financial Statements for FY 1997    FSC-9860-8-0001    03/98           —

  International Trade   Financial Statements for FY 1997            FSC-9862-8-0001    03/98           —
  Administration

  Minority Business     Financial Statements for FY 1997            FSC-9863-8-0001    03/98           —
  Development Agency

  National Oceanic      Financial Statements for FY 1997            FSC-9865-8-0001    03/98           —
  and Atmospheric
  Administration

  National              Financial Statements for FY 1997            FSC-9866-8-0001    03/98           —
  Telecommunications
  and Information
  Administration

  Office of the         Office of Computer Services                 FSD-10021-8-0001   02/98           —
  Secretary             General Controls

                        General Administration’s Franchise Fund's   FSD-10240-8-0001   02/98           —
                        Financial Statements as of Sept. 30, 1997

                        Department of Commerce’s Consolidated       FSD-9753-8-0001    03/98           —
                        Financial Statements for FY 1997

                        General Administration’s WCF and S&E        FSD-9754-8-0001    03/98           —
                        Financial Statements as of Sept. 30, 1997

  Patent and            Financial Statements as of Sept. 30, 1997   FSD-9755-8-0001    03/98           —
  Trademark Office      and 1996

  Technology            TA’s Financial Statements for FY 1997       FSC-9868-8-0001    03/98           —
  Administration
                        NIST’s Financial Statements for FY 1997     FSC-9864-8-0001    03/98           —

                        NTIS’s Financial Statements for FY 1997     FSC-9867-8-0001    03/98           —




March 1998                              Commerce IG Semiannual Report                                      89
Tables and Appendices



     Appendix A-4. Financial Assistance Audits
                                                                                                                       Funds to
                                                                                                Questioned Unsupported Be Put to
        Agency                             Auditee                       Number            Date   Costs       Costs    Better Use
 Economic                     Clearwater Economic                       STL-9830-          02/98              $3,055                    —              $12,327
 Development                  Development Association, ID               8-0001
 Administration
                              City of Pattonsburg, MO                   DEN-9651-          02/98            143,159             $99,740                     —
                                                                        8-0001

                              City of Gloucester, MA                    ATL-10253-         03/98              12,500                    —              629,310
                                                                        8-0001

 International Trade          International Environmental               ATL-10082-         03/98            105,049                     —              352,951
 Administration               Business and Technology                   8-0001
                              Institute, Inc., MA

 National Oceanic             Massachusetts Coastal Zone                ATL-10278-         03/98              25,393                    —                   —
 and Atmospheric              Management Office                         8-0001
 Administration
                              West Virginia High                        ATL-9259-          03/98                    —                   —                   —
                              Technology Consortium                     8-0001

 National           Association of Bay Area                             STL-9491-          11/97              69,078                7,094                   —
 Telecommunications Governments, CA                                     8-0001
 and Information
 Administration     HandsNet, Inc., CA                                  STL-10522-         03/98                    —                   —                   —
                                                                        8-0001

 Technology            Physical Optics                                  DEN-10129- 10/97                            —                   —                   —
 Administration - NIST Corporation, CA                                  8-0001

                              Reliable Software                         DEN-10128- 10/97                            —                   —                   —
                              Technologies, VA                          8-0001

                              Rhode Island Manufacturing                DEN-10070- 10/97                            —                   —                   —
                              Extension Services                        8-0001

                              WestCAMP, Inc., UT                        DEN-9945-          10/97                    —                   —                   —
                                                                        8-0001

                              Industry Network                          DEN-9555-          12/97              28,047                9,058                   —
                              Corporation, NM                           8-0001

                              Florida Manufacturing                     DEN-9365-          01/98            106,552             104,763                     —
                              Extension Partnership                     8-0001

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




90                                                    Commerce IG Semiannual Report                                                             March 1998
                                                                                                          Tables and Appendices



  Appendix A-4. Financial Assistance Audits — Continued
                                                                                                                        Funds to
                                                                                                 Questioned Unsupported Be Put to
        Agency                              Auditee                       Number            Date   Costs       Costs    Better Use
 Technology            Manufacturing Extension                           DEN-10116- 01/98                           —                   —               —
 Administration - NIST Partnership of New                                8-0001
                       Hampshire, Inc.

                               Arkansas Science and                      DEN-9556-          02/98           358,596             358,596                 —
                               Technology Authority                      8-0001

                               Montana State University                  DEN-9858-          02/98             30,373                    —               —
                                                                         8-0001

                               New Jersey Manufacturing                  DEN-10061- 02/98                   186,944             186,944                 —
                               Extension Program, Inc.                   8-0001

                               Wisconsin Center for                      DEN-9641-          02/98                   —                   —               —
                               Manufacturing and                         8-0001
                               Productivity, Inc.

                               A.L. Philpott Manufacturing               DEN-10071- 03/98                     62,630              62,630                —
                               Center, VA                                8-0001

                               Cubicon Corporation, CA                   DEN-8970-          03/98           103,008               17,252         1,400,000
                                                                         8-0001

                               Deltronic Crystal Industries,             DEN-10130- 03/98                       1,538               1,538               —
                               Inc., NJ                                  8-0001

                               Maine Science and                         DEN-9957-          03/98             31,186                    —               —
                               Technology Foundation                     8-0001

                               SDL, Inc., CA                             DEN-10131- 03/98                           —                   —               —
                                                                         8-0001

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




March 1998                                             Commerce IG Semiannual Report                                                                        91
Tables and Appendices



          Appendix B. Processed Reports
         The Office of Inspector General reviewed and accepted 264 financial assistance
         audit reports prepared by independent public accountants and local, state, and other
         federal auditors. The reports processed with questioned costs, recommendations
         that funds be put to better use, and/or nonfinancial recommendations are listed in
         Appendix B-1.

                                                                              OMB A-128
                                                                              and A-133
                                    Agency                                     Audits
         Economic Development Administration                                         88

         International Trade Administration                                           6

         Minority Business Development Agency                                         1

         National Oceanic and Atmospheric Administration                             14

         Technology Administration                                                   19

           National Institute of Standards and Technology *                          53

         Multi-Agency                                                                26

         Agency Not Identified                                                       57

         Total                                                                     264

         * Includes ATP program-specific audits.




92                               Commerce IG Semiannual Report                                  March 1998
                                                                                                           Tables and Appendices



   Appendix B-1. Processed Financial Assistance Audits
                                                                                                                           Funds to
                                                                                                    Questioned Unsupported Be Put to
       Agency                            Auditee                          Number               Date   Costs       Costs    Better Use

  Economic                  Georgia Mountains Regional                ATL-9999-8-0942 10/97                  $399,136                     —                 —
  Development               Development Center
  Administration
                            Bonneville County, ID                     ATL-9999-8-0243 03/98                      6,913                    —                 —

  National Oceanic          State of Idaho                            ATL-9999-8-0046 12/97                     25,000                    —                 —
  and Atmospheric
  Administration            Woods Hole Oceanographic                  ATL-9999-8-0250 03/98                     21,339                    —                 —
                            Institution, MA

  Technology                Soane BioSciences, Inc., GA               ATL-9999-8-0011 03/98                      2,319                    —             $3,204
  Administration -
  NIST                      Westinghouse Electric                     ATL-9999-8-0019 03/98                     16,845                    —                 —
                            Corporation, FL

                            Micron Optics, Inc., GA                   ATL-9999-8-0020 03/98                           —                   —                 —

                            Caterpillar Inc., IL                      ATL-9999-8-0023 03/98                      3,091             $3,091                   —

                            The Ingersoll Milling                     ATL-9999-8-0025 03/98                   457,975                     —                 —
                            Machine Company, IL

                            Intelligent Automation                    ATL-9999-8-0033 03/98                     98,244                    —                 —
                            Systems, Inc., MA

                            Norton Diamond Film, MA                   ATL-9999-8-0035 03/98                     13,620                    —                 —

                            Chrysler Corporation, MI                  ATL-9999-8-0039 03/98                           —                   —                 —

                            Ford Motor Company, MI                    ATL-9999-8-0040 03/98                           —                   —                 —

                            General Motors Corp., MI                  ATL-9999-8-0041 03/98                           —                   —                 —

                            International Business                    ATL-9999-8-0045 03/98                           —                   —                 —
                            Machines Corporation, NC

                            Sunquest Information                      ATL-9999-8-0050 03/98                   228,332                     —                 —
                            Systems, Inc., PA

                            International Business                    ATL-9999-8-0052 03/98                           —                   —                 —
                            Machines Corporation, NY

                            Advanced Product                          ATL-9999-8-0077 03/98                     61,006                    —                 —
                            Development, Inc., PA
  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




March 1998                                             Commerce IG Semiannual Report                                                                            93
                                            Definitions of OIG Reviews and
                                            Financial Statements Audit Terms


                                                  OIG Reviews
     Audits                                                    Inspections
     Performance Audits — These audits look at the             Operational Inspections — These are reviews of
     efficiency, effectiveness, and economy of the             an activity, unit, or office, or a contractor or organi-
     Department’s programs, activities, and information        zation that receives funds from the Department.
     technology systems. They may check a unit’s               They focus on an organization, not a whole pro-
     compliance with laws and regulations, and evaluate        gram, and are designed to give agency managers
     its success in achieving program objectives.              timely information about operations, including
                                                               current and foreseeable problems.
     Financial-Related Audits — These audits review
     the Department’s contracts, grants, cooperative           Program Evaluations — These are in-depth
     agreements, loans, and loan guaranties. They assess       reviews of specific management issues, policies, or
     compliance with laws, regulations, and award terms;       programs.
     adequacy of accounting systems and internal con-
                                                               Systems Evaluations — These are reviews of sys-
     trols; allowance of costs; and the degree to which a
                                                               tem development, acquisition, operations, and policy
     project achieved the intended results.
                                                               in order to improve efficiency and effectiveness.
     Financial Statements Audits — The CFO Act, as             They focus on Department-wide computer systems
     amended by GMRA, requires federal agencies to             and other technologies and address all project
     prepare annual financial statements and to subject        phases, including business process reengineering,
     them to audit. The OIG is responsible for conduct-        system definition, system development, deployment,
     ing these audits and reporting the results to the         operations, and maintenance.
     Secretary.


                            Financial Statements Audit Terms
     Overview — This required component of financial           Unqualified Opinion — The financial statements
     statements is to provide a clear, concise description     present fairly, in all material aspects, the entity’s
     of the entity’s programs, activities, and results. It     financial position and results of operations.
     contains the entity’s performance measures and
                                                               Qualified Opinion — Except for the effects of the
     serves as a link between the statements and the
                                                               matter(s) to which the qualification relates, the
     requirements of GPRA.
                                                               financial statements present fairly, in all material
     Trend Analysis — This analysis of performance             respects, the entity’s financial position and results of
     data from multiple years allows conclusions to be         operations.
     drawn about an entity’s progress over time in
                                                               Adverse Opinion — The financial statements do
     improving its results. To facilitate this analysis, the
                                                               not present fairly the entity’s financial position or
     entity should present data from several prior years,
                                                               results of operations.
     projected data for the following year, and a
     comparison of actual versus targeted performance.         Disclaimer of Opinion — The auditor does not
                                                               express an opinion on the financial statements.


94                                           Commerce IG Semiannual Report                                    March 1998
                           Glossary of Abbreviations

AD/CVD ........................................................................................................................... Antidumping/Countervailing Duty
APS .............................................................................................................................................. Automated Patent System
AWIPS ...................................................................................................... Advanced Weather Interactive Processing System
BEA ........................................................................................................................................ Bureau of Economic Analysis
BXA .................................................................................................................................. Bureau of Export Administration
CAMS ......................................................................................................... Commerce Administrative Management System
CFO .................................................................................................................................................. Chief Financial Officer
CIFP ..................................................................................................................... Capital Improvements Facilities Program
CPA ............................................................................................................................................ certified public accounting
CZM ............................................................................................................................................ Coastal Zone Management
EDA ........................................................................................................................ Economic Development Administration
EPA ................................................................................................................................... Environmental Protection Agency
ESA ....................................................................................................................... Economics and Statistics Administration
FCC ...........................................................................................................................Federal Communications Commission
GMRA ....................................................................................................................... Government Management Reform Act
GPRA .................................................................................................................. Government Performance and Results Act
GSA .................................................................................................................................... General Services Administration
IA .......................................................................................................................................................Import Administration
ITA ................................................................................................................................... International Trade Administration
KDP-4 ................................................................................................................................................ Key Decision Point-4
MAF ...................................................................................................................................................... Master Address File
MBDA ................................................................................................................... Minority Business Development Agency
MEP ............................................................................................................................ Manufacturing Extension Partnership
MBOC ............................................................................................................... Minority Business Opportunity Committee
NERRS ............................................................................................................National Estuarine Research Reserve System
NEXRAD ............................................................................................................................. Next Generation Weather Radar
NIST ............................................................................................................. National Institute of Standards and Technology
NMFS .............................................................................................................................. National Marine Fisheries Service
NOAA ..................................................................................................... National Oceanic and Atmospheric Administration
NTIA ..................................................................................... National Telecommunications and Information Administration
NTIS ........................................................................................................................ National Technical Information Service
NWS ..............................................................................................................................................National Weather Service
OCRM .................................................................................................. Office of Ocean and Coastal Resource Management
OCS ......................................................................................................................................... Office of Computer Services
OIG ............................................................................................................................................ Office of Inspector General
OMB ............................................................................................................................... Office of Management and Budget
OSM .................................................................................................................................. Office of Spectrum Management
PTO .......................................................................................................................................... Patent and Trademark Office
RLF .........................................................................................................................................................revolving loan fund
S&E ............................................................................................................................................ Salaries and Expenses Fund
SDM ......................................................................................................................... System Development and Maintenance
TA ............................................................................................................................................... Technology Administration
TD .......................................................................................................................................................... Trade Development
TEMS ............................................................................................................................... Trade Events Management System
US&FCS ..................................................................................................................... U.S. and Foreign Commercial Service
WCF ................................................................................................................................................... Working Capital Fund
WFO ................................................................................................................................................. weather forecast office
Y2K ...................................................................................................................................................................... Year 2000
March 1998                                                    Commerce IG Semiannual Report                                                                                    95
                                      Office of Inspector General
                                          Organization Chart

                                                                        Inspector
               Office of                                                 General                                           Office of
            Compliance and
                                                                     Deputy                                                Counsel
            Administration
                                                                Inspector General

               Office of
                                                                                                                        Office of
           Inspections and
                                                                                                                   Systems Evaluation
         Program Evaluations



                             Office of                                                                        Office of
                              Audits                                                                       Investigations



Headquarters           Financial Statement               Regional                 Financial Fraud               Investigative        Special Activities
   Audits                    Audits                       Audits                       Unit                      Operations              Section

   Business                   Financial                  Atlanta                                                Washington
   and Trade                 Statements                  Regional                                                 Field
    Audits                     Audits                     Office                                                Operations
  Economics                  Financial                   Seattle                                                Silver Spring
 and Statistics         Statements Contract              Regional                                                   Field
    Audits                    Audits                      Office                                                 Operations
   Science                   Financial                    Denver                                                  Denver
and Technology            and Peformance                 Regional                                                  Field
    Audits                   Analysis                     Office                                                 Operations




                                                OIG Points of Contact
Inspector General ................................... (202) 482-4661        Office of Counsel ................................... (202) 482-5992
Congressional Liaison ............................ (202) 482-3052           Office of Inspections and Program Eval.. (202) 482-2754
Office of Audits.......................................(202) 482-1934       Office of Investigations ........................... (202) 482-0934
Office of Compliance and Admin. ........... (202) 482-0231                  Office of Systems Evaluation ................. (202) 482-6186
                                          TDD Number ..................................(202) 482-4948
                                          Media Inquiries ................................(202) 482-5992
                                          REQUESTS FOR REPORTS:
                                          Telephone .......................................(202) 482-0231
                                          Internet E-Mail .................................oigreports@doc.gov
                                          OIG HOTLINE:
                                          Telephone .......................................(202) 482-2495 or (800) 424-5197
                                          Internet E-Mail .................................oighotline@doc.gov

                                                        OIG Internet Home Page
                                              http://www.oig.doc.gov
